  DEPARTMENT OF JUSTICE AWARDS TO THE 

NATIONAL DISTRICT ATTORNEYS ASSOCIATION 





        U.S. Department of Justice 

      Office of the Inspector General 

               Audit Division 



        Audit Report GR-30-10-001 

                April 2010
	


     REDACTED – FOR PUBLIC RELEASE

This Page Left Intentionally Blank
	
             DEPARTMENT OF JUSTICE AWARDS TO THE

           NATIONAL DISTRICT ATTORNEYS ASSOCIATION


                             EXECUTIVE SUMMARY


       The Department of Justice (DOJ) Office of the Inspector General (OIG)
completed an audit of 16 DOJ grants awarded to the National District
Attorneys Association (NDAA). The NDAA is a professional organization that
represents criminal prosecutors. Its members come from the offices of
district attorneys, state’s attorneys, attorneys general, and county and city
prosecutors. The NDAA provides its services to prosecuting officials through
publications, conferences, and training.

       During our audit, we reviewed 16 active DOJ grants totaling more than
$16 million that were awarded by the Office of Justice Programs (OJP) and
the Office on Violence Against Women (OVW). We conducted this audit to
determine whether costs claimed under the grants were allowable,
reasonable, and in accordance with applicable laws, regulations, guidelines,
and the terms and conditions of the award. Unless otherwise stated in the
report, we applied the OJP Financial Guide (Financial Guide) as our primary
criteria. 1

      As a result of our audit, we found that NDAA did not meet important
DOJ grant reporting, expenditure tracking, and cost allocation requirements.
The audit found that the NDAA submitted financial status reports to OJP and
OVW detailing inaccurate expenditure activity, and the NDAA requested
excessive grant funds. 2 Further, the NDAA did not follow standard
accounting practices and did not maintain adequate internal controls to
ensure compliance with grant requirements. For example, at the end of a
uniform reporting period (which may be monthly, quarterly, or annually), a
standard accounting practice is to “lock” the accounting period to prevent
users from recording or modifying financial transactions for that period of
time. The NDAA did not lock its accounting system for past accounting
periods, which impaired its ability to ensure that it submitted accurate
financial status reports, and increased the risk of fraudulent activities going
undetected.

       1
          The Financial Guide serves as a reference manual that assists award recipients in
the fiduciary responsibility to safeguard award funds and ensure funds are used
appropriately. Both OJP and the OVW require grantees to abide by the requirements in the
OJP Financial Guide.
       2
         OJP’s Minimum Cash On Hand Requirements state that recipients should time their
drawdown requests to ensure that federal cash on hand is the minimum needed for
disbursements and reimbursements to be made immediately or within 10 days.
      In addition to allowing personnel to post transactions after grant
reporting periods had ended, NDAA officials told us that the computer server
that maintained the general ledger used prior to September 30, 2006
“crashed” in July 2008, and the NDAA was unable retrieve the electronic
general ledger. As a result, the NDAA lost a large amount of its financial
data, some of which pertained to its DOJ awards.3

      Our audit also found that NDAA charged to the 16 grants we reviewed
over $4 million in costs that we consider to be unsupported or unallowable.
These unsupported and unallowable costs included the following:

   •	 NDAA charged DOJ grants over $39,000 in miscellaneous and indirect
      expenditures that were not included as cost categories on DOJ
      approved grant budgets.

   •	 For OJP grant 2006-DD-BX-K272, NDAA’s supporting payroll 

      documentation did not reconcile to its general ledger resulting in
	
      unsupported labor charges of over $3,000.
	

   •	 NDAA charged almost $15,000 in salaries for positions that either were
      not in its approved budgets or were identified in approved budgets as
      “in-kind,” and consequently, should not have been paid for with grant
      funds. 4

   •	 NDAA had neither policies nor a method or formula for calculating the
      percentage of time its employees should charge to DOJ grants for
      holiday or personal leave. Therefore, we were unable to verify the
      accuracy or determine the reasonableness of over $134,000 in charges
      for holiday and personnel leave.




       3
         The seven grants impacted by the server crash were: (1) 2001-GP-CX-K050,
(2) 2004-WT-AX-K047, (3) 2004-DN-BX-K017, (4) 2005-MU-FX-K012,
(5) 2006-DD-BX-K272, (6) 2006-CP-BX-K002, and (7) 2007-DD-BX-K042.
       4
         According to the Financial Guide, in-kind is the value of something received or
provided that does not have a cost associated with it.

                                             ii
	
  •	   NDAA allocated over $9,000 in computer charges to two awards whose
       budgets did not include any approval to purchase computers with
       grant funds. The OJP Financial Guide states that computers are costs
       that require prior approval from the granting agency. NDAA was
       authorized two computers under grant number 2001-GP-CX-K050, but
       purchased five. NDAA was not authorized for computer purchases
       under grant number 2007-CI-FX-K005, but one computer was charged
       to the grant.

  •	 NDAA’s travel transactions totaling more than $250,000 were not
     supported with adequate documentation, such as written travel
     authorizations, vouchers, or receipts and invoices. NDAA officials
     explained that many of the approvals for travel were given verbally.
     However, without written approval documenting the reason for travel,
     the potential for abusing grant funds increases. For instance, without
     written authorizations, we do not know whether the traveler was
     permitted to incur the expense on behalf of NDAA or if the travel was
     for an official grant purpose.

  •	 NDAA appears to have misapplied and miscalculated its indirect cost
     rates, resulting in unsupported indirect expenses totaling nearly
     $1.5 million.

  •	 NDAA’s pre-award costs for grant 2007-DD-BX-K042 did not
     correspond to costs approved by OJP. For example, the pre-award
     cost agreement specified $38,900 in “Contractual” costs, but the
     actual pre-agreement contractual expenditures charged to the grant
     were over $300,000. Additionally, although NDAA did not request
     approval for any overhead costs in the approved pre-award costs, we
     found that NDAA charged over $47,000 for overhead expenses. NDAA
     further could not explain its basis for charging the grant 67.2 percent
     of all travel incurred during the pre-award time period. As a result, we
     could not confirm the validity of the pre-award travel charges, nor
     could we determine whether they were appropriate and within the
     scope of the grant’s objectives. As a result of these irregularities, we
     questioned $665,000 in pre-award costs charged to the grant as
     unsupported.

      Our report contains 29 recommendations. We discussed the results of
our audit with NDAA officials and have included their comments in the report
as applicable.




                                     iii
	
                               Table of Contents

                                                                                PAGE

INTRODUCTION ....................................................................... 1

    DOJ Awards to the NDAA........................................................ 2
	
    Audit Approach ..................................................................... 3
	
FINDINGS AND RECOMMENDATIONS....................................... 5

    Reporting ............................................................................. 5
	
        Financial Status Reports................................................... 6
	
        Progress Reports............................................................. 8
	

    Drawdowns .......................................................................... 9
	
    Budget Management and Control............................................13
	
    Grant Expenditures...............................................................14
	
        Personnel Costs .............................................................15
	
        Accountable Property......................................................24
	
        Travel Costs ..................................................................26
	
        Indirect Costs ................................................................32
	
        Grant 2007-DD-BX-K042 Pre-Agreement Costs..................37
	

    Program Income ..................................................................40
	
    Recommendations ................................................................42
	
SCHEDULE OF DOLLAR-RELATED FINDINGS .......................... 45

APPENDIX I - OBJECTIVES, SCOPE, AND METHODOLOGY ...... 46

APPENDIX II - Detail by Reporting Period of Variances

   between FSR Amounts and Accounting System

   Reported Amounts .......................................................... 51

APPENDIX III - Detail by Award of Individual Variances

   between Drawdown Request and General 

   Ledger Expenditures ....................................................... 58

APPENDIX IV - Unallowable Salary Charges by Award .......... 62

APPENDIX V - AUDITEE RESPONSE TO THE DRAFT REPORT... 65

APPENDIX VI - OJP RESPONSE TO THE DRAFT REPORT ......... 72

APPENDIX VII - OVW RESPONSE TO THE DRAFT REPORT...... 79

APPENDIX VIII - ACTIONS NECESSARY TO CLOSE

   THE REPORT .................................................................... 83

                          INTRODUCTION

       The National District Attorneys Association (NDAA) was formed in
1950, and represents itself as the oldest and largest professional
organization for criminal prosecutors in the world. Its members come from
offices of district attorneys, state’s attorneys, attorneys general, and county
and city prosecutors with responsibility for prosecuting criminal violations in
every state and territory in the United States. Its purposes are to:

      •	 foster and maintain the integrity of prosecuting attorneys;

      •	 improve and facilitate the administration of justice;

      •	 publish and distribute reports and other literary works on legal
         subjects; and

      •	 promote the study of the law and the continuing education of
         prosecuting attorneys, lawyers, and law enforcement personnel by
         arranging seminars, conventions, training, or meetings for the
         discussion and solution of legal problems affecting the public
         interest in the administration of justice.

       The NDAA provides its services through publications, hosting
conferences, and offering training courses and seminars to prosecuting
officials.

       In November 2005, the NDAA merged with the National College of
District Attorneys (NCDA), and with the American Prosecutors Research
Institute (APRI) in October 2006. As shown by Exhibit 1, an independent
Board of Directors governs NDAA and appoints executive committee-level
members and other officers that administer its day-to-day activities.
                      Exhibit 1: NDAA Organizational Structure

                                              NDAA Board of
                                                Directors
                                              (84 members)


                                              NDAA Executive                          Legend
                                                Committee                 Solid line means Direct report
                                               (16 Officers)              Dotted Line means Advisory




                                         NDAA Executive Director

                                                                                     NCDA Board of
           APRI Board of                                                               Regents
             Trustees                      NDAA Chief of Staff
                                         NDAA Operations Division
                                              Headquarters

             Director                                                                   Dean
        NDAA Research and                                                        NDAA Education Divison
       Development Division                                                             NCDA
              APRI                                                                       NAC


             Sections:               Function or positions that support
   Juvenile Justice and Family Law                                          Director of Programs, Academics,
                                        the entire corporation such as
   Crime Control and Enforcement                                               Curriculum Administration,
                                     finance, human resources, General
        Science Technology                                                        Office Administration
                                                    Counsel
      Research and Evaluation

Source: NDAA

      The NDAA hosts many of its instructional seminars and classes at the
National Advocacy Center (NAC) in Columbia, South Carolina. The NAC is
the educational arm of the Department of Justice (DOJ) Executive Office for
United States Attorneys (EOUSA), which allows NDAA to use its classrooms
and lecture halls free of charge. The NAC facility also includes guest rooms
where instructors and participants stay overnight while attending NDAA
courses. The EOUSA charges the NDAA for costs associated with providing
lodging to its classroom participants.

DOJ Awards to the NDAA

      During our audit, the NDAA had 16 active DOJ awards totaling more
than $16 million from two different DOJ awarding agencies, the Office of
Justice Programs (OJP) and Office on Violence Against Women (OVW).
NDAA’s OJP awards were administered by different OJP program offices or
bureaus including the Bureau of Justice Assistance, the Office of Juvenile
Justice and Delinquency Prevention, the National Institute of Justice, and the
Office for Victims of Crime. Exhibit 2 details each of the 16 NDAA awards
reviewed by this audit.




                                                    2
	
                       Exhibit 2: NDAA Grants Audited

                                                                       Award
                                  Award             Award             Amount
         Award Number          Start Date         End Date               ($)
                             Bureau of Justice Assistance
        2001-GP-CX-K050          8/1/2001         6/30/2008             3,457,187
        2006-DD-BX-K272          9/1/2006         3/31/2010               394,893
        2006-CP-BX-K002          9/1/2006         9/30/2008               310,000
        2007-DD-BX-K042          3/1/2007         4/30/2009             2,000,000
        2007-DD-BX-K173         10/1/2007         1/31/2010               475,000
        2007-GP-CX-K004         10/1/2007         9/30/2009               250,000
        2007-CP-BX-K002         10/1/2007         8/31/2010               110,000
               Office of Juvenile Justice and Delinquency Prevention
        2005-MU-FX-0012*        10/1/2005        10/31/2008               800,000
        2007-CI-FX-K005          8/1/2007         6/30/2009             1,289,355
        2007-JL-FX-K005         10/1/2007         3/31/2010               700,000
                             National Institute of Justice
        2004-DN-BX-K017          7/1/2004         7/31/2008             1,300,000
        2007-DN-BX-0011*        10/1/2007         9/30/2010               406,343
                              Office for Victims of Crime
        2007-VF-GX-K012          8/1/2007        10/31/2009                75,000
                          Office on Violence Against Women
        2004-WT-AX-K047          1/1/2005         2/28/2010             3,385,151
        2005-EW-AX-K002          6/1/2005         6/30/2010               867,861
        2007-TA-AX-K027          5/1/2007         4/30/2009               500,000
                                          Total Awards Audited $16,320,790
    Source: OJP
    * Two awards, 2005-MU-FX-0012 and 2007-DN-BX-0011, are grants. The
    remaining 14 awards are cooperative agreements. The DOJ uses cooperative
    agreements as an award vehicle when it anticipates substantial collaboration
    between itself and the award recipient. Cooperative agreements are subject to
    the same rules and regulations as grants. Therefore, for the purposes of this
    report, cooperative agreements and grants are used interchangeably.

      The overall purpose of the 16 awards was to support various programs
by offering training and technical assistance to state and local prosecutors.

Audit Approach

      We conducted this audit to determine whether costs claimed under the
grants are allowable, reasonable, and in accordance with applicable laws,
regulations, guidelines, and terms and conditions of the awards. To
accomplish this objective, we tested compliance with what we considered the
most important conditions of the award. Unless otherwise stated in the




                                           3
	
report, we used the OJP Financial Guide (Financial Guide) to assess NDAA
performance and compliance with grant requirements. 1

      Specifically, we tested what we believed to be critical grant
requirements necessary to meet the objectives of the audit, including:

       •	 Reporting to determine if the required financial status and
          progress reports were submitted timely and accurately reflected
          grant activity;

       •	 Drawdowns to determine whether grant drawdowns were
          adequately supported and if the grantee was managing grant
          receipts in accordance with federal requirements;

       •	 Budget Management and Control to ensure that NDAA
          appropriately tracked costs to approved budget categories;

       •	 Grant Expenditures to determine the accuracy and allowability of
          costs charged to the grant; and

       •	 Program Income to ensure that any program income generated
          by DOJ-funded grant activity was used in accordance with the
          Financial Guide.

      The audited awards did not require that the NDAA provide matching
funds or monitor subgrantees or contractors. Although we reviewed grant
progress reports, interviewed NDAA officials and employees, and verified a
sample of deliverables to supporting documentation, we did not assess the
overall performance of the programs supported by the DOJ grants. As part
of our audit, we interviewed DOJ grant managers, who expressed concerns
with NDAA’s financial management practices. Therefore, our audit
concentrated on NDAA’s financial management of the 16 grants. Appendix I
contains additional information on our objective, scope, and methodology.




       1
          The Financial Guide serves as a reference manual that assists award recipients in
the fiduciary responsibility to safeguard award funds and ensure funds are used
appropriately.


                                             4
	
              FINDINGS AND RECOMMENDATIONS

           COMPLIANCE WITH ESSENTIAL GRANT REQUIREMENTS

       Although the NDAA received 16 DOJ grants worth over $16
       million, the NDAA had not met important DOJ grant reporting,
       expenditure tracking, and cost allocation requirements. The
       audit found that the NDAA submitted financial status reports
       detailing inaccurate expenditure activity and potentially
       requested excessive grant funds. Further, the NDAA did not
       follow standard accounting practices and did not maintain
       rigorous internal controls to ensure compliance with grant
       requirements. The audit also found that the NDAA lost years of
       important grant financial data because it could not retrieve its
       electronic accounting records prior to September 30, 2006.

       Although all grant costs must be supported with adequate
       documentation and allowable under approved grant budgets, the
       audit identified over $4 million in costs that the NDAA
       inappropriately charged to DOJ grants. Examples of these costs
       include: (1) almost $15,000 in unallowable salaries for
       unapproved personnel or “in kind” work, (2) $665,000 in
       undocumented pre-agreement costs, (3) almost $3 million in
       fringe benefit and indirect costs based on inconsistently or
       erroneously calculated fringe benefit or indirect rates, and (4)
       over $250,000 in unsupported travel and lodging costs.

Reporting

      The special conditions of each of the 16 awards we audited require
that the NDAA comply with administrative and financial requirements
outlined in the Financial Guide and comply with the requirements of Office of
Management and Budget (OMB) Circular A-133 entitled Audits of States,
Local Governments and Non-Profit Organizations (OMB Circular A-133).2
The Financial Guide requires that grantees submit both financial and
program progress reports to inform awarding agencies on the status of each
award.



       2
         OMB A-133 requires that the auditor determine whether the financial statements
of the auditee are presented fairly in all material respects in conformity with generally
accepted accounting principles and whether the schedule of expenditures of Federal awards
is presented fairly in all material respects in relation to the auditee's financial statements
taken as a whole.


                                              5
	
Financial Status Reports (FSRs) should detail the actual expenditures
incurred for each quarterly reporting period, while progress reports should
be submitted semiannually and describe the activities, obstacles, and
achievements of the project supported by each award.

      Because accurate and timely FSRs and progress reports are necessary
to ensure that DOJ awarding agencies can effectively monitor grant activities
and expenditures, we reviewed NDAA-submitted reports for the 16 grants
under review. As detailed by the following sections, we found that the NDAA
did not timely submit all required FSRs and progress reports. In addition,
we found that FSRs did not accurately report grant expenditure activity.

Financial Status Reports

      DOJ awarding agencies monitor the financial performance of each
grant via FSRs. According to the Financial Guide, FSRs should be submitted
within 45 days after the end of each quarterly reporting period. Even when
there have been no outlays of grant funds, a report containing zeroes must
be submitted. Awarding agencies may withhold funds or future awards may
be withheld if reports are not submitted or are excessively late.

      To verify the timeliness of the FSRs, we tested the last four reports the
NDAA submitted for each audited grant. We compared the submission date
of each report to the date each report was due and found that the NDAA
generally submitted the tested FSRs on time.

      The Financial Guide also states that FSRs should be accurate and detail
expenditures and unliquidated obligations at the lowest funding level. 3 Our
audit found that NDAA maintained no written policies or procedures to
ensure that its FSRs are accurate. NDAA officials stated that they determine
current FSR reported outlays by deducting the cumulative outlays reported
on the previous FSR from total grant expenditures extracted from the
accounting system.

      To verify the accuracy of FSRs, we compared all FSRs completed as of
July 2008 for the 16 awards to expenditures recorded in NDAA’s accounting
records. In total, we tested the accuracy of a total of 132 FSRs and
determined that for 13 of the 16 grants we reviewed, the FSRs did not
accurately report expenses as required by the Financial Guide. As shown by
Exhibit 3, these FSR discrepancies ranged from the FSRs for one grant


       3
         Unliquidated obligations on a cash basis are obligations incurred, but not yet paid.
On an accrual basis, they are obligations incurred, but for which an outlay has not yet been
recorded.


                                              6
	
potentially under-reporting more than $328,000 in grant expenditures while
FSRs for another grant were potentially over-reporting $27,185 in grant
financial activity.

             Exhibit 3: Comparison of Expenses per FSR to

          Actual Grant Expenses per NDAA Accounting System 4
	

                                                 Cumulative Reported
                                                         Outlays
                                                                 Per
                                                             Accounting
                                   FSR           Per FSR       System       Variance
     Award Number          Reporting Period         ($)          ($)          ($)
                               Bureau of Justice Assistance
   2001-GP-CX-K050          7/1/2001 - 6/30/2008  3,422,716    3,395,531       27,185
   2006-DD-BX-K272         9/1/2006 – 6/30/2008     272,568      271,544        1,024
   2006-CP-BX-K002         9/1/2006 – 6/30/2008     294,848      294,848            -
   2007-DD-BX-K042         3/1/2007 – 6/30/2008   1,487,821    1,487,821            -
   2007-DD-BX-K173        10/1/2007 – 6/30/2008     163,923      176,841     (12,918)
   2007-GP-CX-K004        10/1/2007 – 6/30/2008      31,467       38,227      (6,760)
   2007-CP-BX-K002        10/1/2007 – 6/30/2008           -            -            -
               Office   of Juvenile Justice and Delinquency Prevention
   2005-MU-FX-0012        10/1/2005 – 6/30/2008     774,785       780,473     (5,688)
   2007-CI-FX-K005           8/1/2007-6/30/2008     502,995       806,635   (303,640)
   2007-JL-FX-K005        10/1/2007 – 6/30/2008      20,507        26,838     (6,331)
                              National Institute of Justice
   2004-DN-BX-K017         7/1/2004 – 6/30/2008    1,199,470    1,204,960      (5,490)
   2007-DN-BX-0011        10/1/2007 – 6/30/2008       26,720       30,428      (3,708)
                               Office for Victims of Crime
   2007-VF-GX-K012         8/1/2007 – 6/30/2008       3,271         3,853       (582)
                           Office on Violence Against Women
   2004-WT-AX-K047         1/1/2005 – 6/30/2008    2,538,508    2,866,729   (328,221)
   2005-EW-AX-K002           6/1/2005-6/30/2008      490,390      512,100    (21,710)
   2007-TA-AX-K027         5/1/2007 – 6/30/2008      237,576      232,412       5,164
  Source: OIG analysis of NDAA FSRs and accounting records

      We determined that the FSR misstatements were caused by weak
NDAA accounting procedures that allow personnel to post expenditure
charges or entries to prior months. At the end of a uniform reporting period
(which may be monthly, quarterly, or annually) a standard accounting
practice is to “lock” the accounting period to prevent users from recording or
modifying financial transactions for that period of time. The NDAA did not
“lock” its accounting system for past accounting periods, which allowed its
personnel to post entries to accounting periods that already reported FSR



      4
         For detail by reporting period of variances between FSR reported amounts and
accounting system reported amounts see Appendix II.



                                             7
	
expenditures. 5 In our opinion, the lack of adequate internal accounting
controls impaired our ability to reconcile NDAA’s general ledger to submitted
FSRs, NDAA’s ability to ensure that its submitted FSRs are accurate, and
increases the risk of fraudulent activities going undetected. Therefore, we
recommend that OJP require that the NDAA develop and implement written
policies and procedures that ensure award expenses are accurately reported
on its FSRs.

Progress Reports

      While FSRs report grant financial activity, progress reports describe
the project status and accomplishments of the DOJ-grant supported program
or project. Progress reports should also describe the status of the project
and compare actual accomplishments to anticipated grant objectives.
According to the Financial Guide, grantees are required to submit progress
reports every six months during the performance period of the award.
Progress reports are due 30 days after the end of each semi-annual
reporting period, June 30 and December 31. DOJ awarding agencies may
withhold grant funds if grantees fail to submit accurate progress reports on
time.

      To assess whether the NDAA submitted progress reports on time, we
reviewed progress report submission dates for each of the 16 grants and
compared these dates to the due date for each progress report. During a 2-
year period ending June 2008, we found that the NDAA submitted progress
reports for 13 of its awards on time. However, three OVW grants had four
late progress reports, as shown in Exhibit 4.

                       Exhibit 4: Late Progress Reports

               Progress Report  Date Report                 Number of
                  Due Date       Received                   Days Late
                           2004-WT-AX-K047
             1/30/2007                    4/17/2007               77
             7/30/2007                    9/12/2007               44
                                2005-EW-AX-K002
             1/30/2007                     4/4/2007               64
                                2007-TA-AX-K027
             9/30/2007                    10/8/2007               8
             Source: OIG analysis of progress report timeliness


      5
         According to NDAA, corrective action has been implemented and NDAA will ensure
that once a reporting period is closed, the system will be locked to prevent a user from
posting entries to a closed period.


                                           8
      Because untimely progress reports hinder OVW’s ability to monitor
grant activity effectively, we recommend that OVW require that the NDAA
develops and implements procedures that ensure it timely submits progress
reports.

Drawdowns

      To obtain DOJ award money, grant recipients must electronically
request grant funds via drawdowns. The Financial Guide states that grant
recipients should only request federal award funds when they incur or
anticipate project costs. Therefore, recipients should time their requests for
grant funds to ensure that they will have only the minimum federal cash on
hand required to pay for actual or anticipated costs within 10 days.

      To ensure that the NDAA requested funds properly and kept minimum
federal cash on hand, we analyzed NDAA’s drawdowns for the 16 awards
from the beginning of each grant period through June 2008. As shown in
Exhibit 5, by June 30, 2008, the NDAA had drawn down $11 million of the
over $16 million it had received from the 16 audited DOJ grants.




                                      9
	
             Exhibit 5: Drawdowns Received as of June 2008

                                                                     Percentage
                                  Drawdowns as           Award        of Dollars
               Award               of June 2008         Amount        Received
              Number                    ($)                ($)           (%)
                             Bureau of Justice Assistance
      2001-GP-CX-K050                     3,381,488       3,457,187       98
      2006-DD-BX-K272                       267,421         394,893       68
      2006-CP-BX-K002                       291,849         310,000       94
      2007-DD-BX-K042                     1,299,300       2,000,000       65
      2007-DD-BX-K173                        94,400         475,000       20
      2007-GP-CX-K004                        28,200         250,000       11
      2007-CP-BX-K002                             0         110,000        0
               Office of Juvenile Justice and Delinquency Prevention
      2005-MU-FX-0012                       767,098         800,000       96
      2007-CI-FX-K005                       486,100       1,289,355       38
      2007-JL-FX-K005                        13,300         700,000        2
                             National Institute of Justice
      2004-DN-BX-K017                     1,173,625       1,300,000       90
      2007-DN-BX-0011                        24,330         406,343        6
                              Office for Victims of Crime
      2007-VF-GX-K012                         3,100          75,000        4
                          Office on Violence Against Women
      2004-WT-AX-K047                     2,497,675       3,385,151       74
      2005-EW-AX-K002                       454,719         867,861       52
      2007-TA-AX-K027                       230,676         500,000       46
                Total                 $11,013,281      $16,320,790      67 %
     Sources: OIG analysis of NDAA accounting system records and OJP and OVW
               draw down records

       NDAA officials stated that they determined drawdown requests by
deducting the cumulative previous drawdown requests from total grant
expenditures extracted from the accounting system. 6 However, NDAA
officials could not identify the specific dates drawdown requests were
prepared, which is critical to know when assessing the accuracy of the
drawdown process. Further, as discussed in the prior section, the
accounting system practices used by the NDAA failed to “lock” what should
have been closed accounting periods. Because its accounting system lacked
adequate controls, NDAA personnel were able to post transactions to NDAA’s
general ledger for time periods in which the NDAA had already prepared a
drawdown request. As a result, a subsequent comparison of NDAA
accounting records to grant drawdowns cannot ascertain whether the NDAA

      6
          When we interviewed NDAA personnel on how drawdowns were calculated the
current personnel did not know the procedures their predecessors used and provided their
belief on how the drawdowns were calculated.


                                           10
	
actually complied with the Financial Guide’s minimum cash-on-hand
requirement.

       In addition to allowing personnel to post transactions after grant
reporting periods, NDAA officials told us that the computer server that
maintained the general ledger used prior to September 30, 2006 “crashed”
in July 2008. As a result, the NDAA lost a large amount of its financial data,
some of which pertained to its DOJ awards. Specifically, we found that
financial data relating to 7 of the 16 awards under review were affected in
some way by the server crash. 7 Due to the unrecoverable loss of data and
the failure to not lock closed accounting periods, we could not reconcile
individual drawdown requests to supporting documents, or otherwise
determine whether NDAA requested funds in excess of what it required to
pay for incurred or anticipated grant expenses.

      As shown in Exhibit 6, our comparison of NDAA accounting records to
OJP and OVW drawdown records found that as of June 2008, the NDAA
requested excessive drawdowns totaling $221,433 for 6 of the 16 grants we
reviewed. 8




        7
         The seven grants impacted by the server crash were: (1) 2001-GP-CX-K050,
(2) 2004-WT-AX-K047, (3) 2004-DN-BX-K017, (4) 2005-MU-FX-K012,
(5) 2006-DD-BX-K272, (6) 2006-CP-BX-K002, and (7) 2007-DD-BX-K042.
        8
            NDAA had not requested any drawdowns for award 2007-CP-BX-K002 as of July
2008.


                                            11
	
            Exhibit 6: Excessive Drawdowns as of June 2008 9

                          Amount
                      Drawn per OJP                               Amount of
                          or OVW         Expenses per NDAA     excessive draw
                          records        Accounting Records         downs
   Award Number              ($)                 ($)                 ($)
                            Bureau of Justice Assistance
 2007-GP-CX-K004                28,200                 19,830               8,370
              Office of Juvenile Justice and Delinquency Prevention
 2007-CI-FX-K005               486,100                325,793            204,434*
 2007-JL-FX-K005                13,300                 12,988                 312
                            National Institute of Justice
 2007-DN-BX-0011                24,330                 21,747               2,583
                             Office for Victims of Crime
 2007-VF-GX-K012                 3,100                  2,530                 570
                         Office on Violence Against Women
 2007-TA-AX-K027                230,676                 225,512                   5,164
                                  Total Excessive Drawdowns                $ 221,433
 Sources: OJP and OVW drawdown records and NDAA accounting records.
 Note:    For award 2007-CI-FX-K005, $44,127 of the $204,434 excess in
          drawdown expenses was the result of an unsupported adjustment;
          $160,307 is the difference between the total OJP drawn down amount
          and the grantee accounting records.

      DOJ awarding agencies rely on grantees to report costs accurately so
that they are aware of the progress on grant awards. By overdrawing on
grant funds, the NDAA is not adhering to the minimum cash-on-hand
requirement.

      The NDAA’s lack of internal controls that allow its employees to post
transactions to closed grant reporting periods, coupled with the loss of
financial data caused by its accounting system crash, prevented us from
reconciling many of the NDAA’s individual drawdown requests to supporting
documentation. We therefore recommend that OJP require that the NDAA
develop and implement: (1) accounting system backup procedures that, at
the very minimum, regularly replicate, store off-site, and otherwise
safeguard all financial data related to DOJ grants; and (2) drawdown
procedures that ensure NDAA personnel request the minimum amount of
federal funds necessary to pay for actual or anticipated costs within 10 days.




      9
         See Appendix III for detail by award individual variances between drawdown
requests and general ledger expenditures.


                                           12
	
Budget Management and Control

       The Financial Guide states that grantees should expend grant funds
according to the budget approved by the awarding agency and included in
the final award. Approved grant budgets document how much the grantee is
authorized to spend in high-level budget categories, such as personnel,
travel, program income, and contractors.

      To ascertain the adequacy of the NDAA’s budget management and
control process, we compared the actual costs the NDAA charged against
each grant’s approved budget. As a result of this comparison, we found that
the NDAA spent $39,772 in miscellaneous and indirect expenditures that
were not included as cost categories on approved grant budgets, as shown
in Exhibit 7.

                    Exhibit 7: Expenditures Charged to

                      Unapproved Budget Categories


         Award Number            Expense Category            Grant Charges
                            Bureau of Justice Assistance
       2001-GP-CX-K050             Miscellaneous                            $ 56
       2006-CP-BX-K002             Miscellaneous                              52
       2007-DD-BX-K042             Miscellaneous                           6,595
       2007-GP-CX-K004                Indirect                             6,760
              Office of Juvenile Justice and Delinquency Prevention
       2005-MU-FX-0012             Miscellaneous                             253
       2007-CI-FX-K005             Miscellaneous                             398
       2007-JL-FX-K005                Indirect                             4,502
                            National Institute of Justice
       2004-DN-BX-K017             Miscellaneous                              61
                             Office for Victims of Crime
       2007-VF-GX-K012                Indirect                               581
                         Office on Violence Against Women
       2004-WT-AX-K047             Miscellaneous                              98
       2005-EW-AX-K002                Indirect                            20,416
                            Subtotal for OJP Grants                      19,258
                          Subtotal for OVW Grants                        20,514
                                                Total                  $ 39,772
       Source: NDAA’s accounting records from grant inception through June 2008




                                         13
	
       According to an NDAA grant manager, the miscellaneous expense
category – where NDAA captured most of the charges listed in Exhibit 7 – no
longer exists. Nevertheless, because the Financial Guide requires that NDAA
receive approval before charging costs to unapproved categories, the NDAA
should not have charged miscellaneous costs to these grants. Consequently,
because these charges are not allowable grant expenditures, we recommend
that OJP remedy $19,258 and OVW remedy the $20,514 in questioned
costs. 10

Grant Expenditures

       According to the Financial Guide, allowable costs are those identified
by the applicable OMB circulars and a grant program’s authorizing
legislation. Costs charged to grants must be reasonable, allocable,
necessary to the project, and comply with funding statute requirements. As
of June 30, 2008, the NDAA reported $11,930,139 in project costs
associated with the 16 audited awards. We reviewed the direct costs
charged to the 16 grants by sampling transactions in certain cost categories,
including personnel, accountable property, travel, and indirect costs. In
addition, because we identified $665,000 charged to award number 2007-
DD-BX-K042 that were incurred before the beginning of the award period,
we included these costs as part of our expenditure sampling. 11

       We tested the NDAA’s grant expenditures to ensure that they were
allowable and supported. As a result of our testing, we identified over $4
million in questioned costs. Exhibit 8 displays by type of sampled cost, the
total value of the expenditures in each category, and the amount of
questioned costs our testing identified.




       10
           Questioned costs are expenditures that do not comply with legal, regulatory or
contractual requirements, or are not supported by adequate documentation at the time of
the audit, or are unnecessary or unreasonable. Questioned costs may be remedied by
offset, waiver, recovery of funds, or the provision of supporting documentation.
       11
        NDAA received approval to include $665,000 of pre-agreement costs on award
number 2007-DD-BX-K042.


                                            14
	
              Exhibit 8: Summary of Dollar-Related Findings

                                         Total Costs           Questioned
              Type of Cost            Claimed by Type            Costs
       Personnel Costs                        $5,185,156         $1,649,477
       Accountable Property                       19,349              9,903
       Travel                                  2,553,590            253,871
       Indirect Costs                          1,478,505          1,478,505
       Pre-Agreement Costs
       (2007-DD-BX-K042 only)                       665,000           665,000
                          Totals                $9,901,600        $4,056,756
       Source: OIG

      The $4 million in questioned costs we identified were either
unallowable or unsupported by appropriate documentation. The following
sections detail our findings by each sampled cost category.

Personnel Costs

       We reviewed the NDAA’s policies for timekeeping and charging costs
associated with salaries earned by its personnel. The NDAA’s March 2005
Employee Handbook notes that employees should record their time worked
in a time management system. According to NDAA officials, employee time
should be recorded electronically using computer spreadsheet or database
applications.12 At the end of a pay period, NDAA employees should submit
their time records to their supervisor with an electronic signature to certify
completion and accuracy. The employee’s supervisor then reviews and
approves time charges prior to the charges being processed and paid. If any
timesheet requires corrections or modifications, both the employee and
supervisor must verify the accuracy of the changes. NDAA officials told us
that the employee’s direct supervisor, the Executive Director, or the Dean of
Education generally approves each timesheet. All timesheets should be
subsequently reviewed by the NDAA’s staff accountant and Finance Director
should certify final approval of payroll.




      12
         The NDAA used Oracle Corporation’s Oracle database system for timekeeping
through May 2009.


                                         15
	
      However, we found that when employees work on more than one
project, only the employee’s direct supervisor signs off on the hours charged
and not the supervisor of the other projects. We are concerned by this
practice because if an employee is working on multiple grants for different
supervisors, the direct supervisor for one grant’s project may not be aware
of the work performed by the employee on another project. Because NDAA
receives multiple DOJ grants, it should ensure that time charged to each
grant project is reviewed by pertinent supervisors and project managers.
Without requiring the supervisor of each project to review time charged by
each employee, supervisors risk authorizing timesheets that they cannot
readily validate.

       In our opinion, this practice is especially of concern considering NDAA’s
program managers or supervisors are responsible for tracking labor costs
associated with their respective DOJ-funded projects. Although NDAA
program managers receive a summary of salary expenditures by project
from NDAA financial staff, individual program managers told us that they
cannot validate labor charges recorded on these sheets because they only
list salaries as a total expense and not as charged by each employee.
Indeed, our review of how the NDAA tracks and accounts for personnel costs
found that the NDAA employs no process to validate the hours each
employee charges to its DOJ grant projects.

      To determine if timesheets were properly authorized, we judgmentally
selected two non-consecutive pay periods that encompassed the 16 audited
grants and reviewed employee-submitted timesheets for each of these
sampled pay periods. Out of the total 179 timesheets we tested, 149 had
proper employee and supervisory signatures. However, as shown in Exhibit
9, we found that 30 timesheets lacked signatures evidencing supervisory
review and approval.




                                      16
	
       Exhibit 9: Timesheets Reviewed for Supervisory Approval
                                Number of Timesheets          Supervisory Approval
           Award Number                Reviewed 13              Yes          No
                                Bureau of Justice Assistance
      2001-GP-CX-K050                       15                   10            5
      2006-DD-BX-K272                       17                   16            1
      2006-CP-BX-K002                        7                    3            2
      2007-DD-BX-K042                       24                   23            1
      2007-DD-BX-K173                        9                    7            2
      2007-GP-CX-K004                        6                    3            3
      2007-CP-BX-K002                        -                    -            -
                  Office of Juvenile Justice and Delinquency Prevention
      2005-MU-FX-0012                       15                    9            6
      2007-CI-FX-K005                       32                   27            5
      2007-JL-FX-K005                        4                    2            -
                                National Institute of Justice
      2004-DN-BX-K017                       21                   15            3
      2007-DN-BX-0011                        8                    6            -
                                  Office of Victims of Crime
      2007-VF-GX-K012                        4                    1            -
                             Office on Violence Against Women
      2004-WT-AX-K047                       19                   17            2
      2005-EW-AX-K002                        7                    7            -
      2007-TA-AX-K027                        3                    3            -
         Subtotal for OJP                  150                  122           28
        Subtotal for OVW                    29                   27            2
                     Total                 179                  149           30
      Source: OIG Analysis of NDAA Timesheets


       Of the 30 timesheets we identified that lacked proper supervisory
approval, we noted 19 instances where employees approved their own
timesheet. For example, in both pay periods ending 11/2/2007 and
3/7/2008, three individuals signed off on their own timesheets as both the
employee and the supervisor. Without a policy that prevents employees
from signing their own timesheets or ensuring that supervisors sign off on
grant-related timesheets, the NDAA risks inaccurately recording the time its
employees charge to DOJ grants. We therefore recommend that OJP
ensures that the NDAA implements a timekeeping approval process that
requires supervisors to sign off on work done by employees for each
individual project.

      As of June 2008 the NDAA allocated $5,050,504 of personnel related
costs to the 16 awards we reviewed. We tested a judgmental sample of
labor transactions in order to determine if the NDAA personnel costs were

      13
          We reviewed a total of 191 timesheets. However, 12 timesheets were found
across several grants for the same pay period. Therefore, we analyzed them once.


                                           17
	
allocable and supported by adequate documentation. As illustrated in
Exhibit 10, we identified approximately $1.65 million in questioned costs.

   Exhibit 10: Summary of Review of NDAA Personnel Charges on
                      Audited DOJ Awards

        Personnel Charges             Grant Costs         Questioned Costs
     Salaries                            3,419,068
       Unsupported salaries                                             3,083
       Unallowable Salary                                              14,958
     Personal and Holiday                       134,198               134,198
     Fringe Benefits                      1,497,238                1,497,238
     Total                              $5,050,504               $1,649,477
     Source: Based on NDAA’s accounting records from inception of the grants
     through June 2008 and results of OIG testing.

     Unsupported and Unallowable Salaries

       We sampled various labor transactions to determine whether the
NDAA’s personnel costs were supported by adequate documentation and
allowable based on the purpose of each grant. The NDAA provided us with
labor distribution worksheets that detailed the method for charging grants
for direct time, fringe, and overhead costs. The distribution worksheets
provided by the NDAA contained codes for each grant that employees used
to record their time worked on their individual timesheet. The NDAA then
used these codes in a distribution worksheet for each grant. General ledger
entries for salaries, labor, and fringe benefits were entered based on the
information in the labor distribution worksheets.

     We initially tested two non-consecutive pay periods in OJP grant 2006-
DD-BX-K272. The dollar amounts listed in the general ledger could not be
reconciled to the NDAA labor distribution worksheets, as shown in Exhibit
11.




                                         18
	
              Exhibit 11: Initial Testing of Grant 2006-DD-BX-K272

      Pay Period                                     Distribution
         Date             General Ledger             Worksheet             Difference
       01/12/07                 $ 1,600                     $   188           $ 1,412
       02/23/07                     2,730                     1,059              1,671
        Total                     $4,330                     $1,247            $3,083
   Source: NDAA financial records

       NDAA officials were unable to explain the differences between its
general ledger and the labor distribution worksheets. Because we found
differences in both periods we tested, we expanded our testing to include
the pay periods ending on 6/15/2007 and 5/16/2008. We reviewed the
labor distribution worksheets for accuracy and the associated timesheets for
approval. Further, we compared labor charges to the general ledger. We
found no differences between the general ledger and the distribution
worksheets for the additional periods we selected for testing. However,
because there were differences in the first two periods tested and the NDAA
was unable to explain the differences, we question the $3,083 in general
ledger charges for grant 2006-DD-BX-K272 as unsupported costs.
Therefore, we recommend that OJP remedy the $3,083 in unsupported
charges associated with grant 2006-DD-BX-K272.

      In addition, each approved grant budget details individual employees
allowed to work and charge time to each project. Our comparison of each
grant’s approved budget to personnel time records also found that the NDAA
deviated from approved grant budgets with regard to employees that were
permitted to work on and charge costs to 8 of its 16 grant projects. In these
instances, some positions were being charged to grants that were not in the
approved budgets or were identified in approved budgets as “in-kind,” and
consequently, should not have been charged to a specific grant. 14 For
example, the approved grant budget for award number 2006-CP-BX-K002,
specified that costs associated with time spent on the project by the NDAA
Dean and the Director of Education were to be “in-kind” and therefore not
charged to the grant. Nonetheless, based on our review of the salaries
charged to this grant, NDAA charged both the salaries of the Dean and the
Director of Education to the grant.




       14
          According to the Financial Guide, in-kind is the value of something received or
provided that does not have a cost associated with it.


                                             19
	
      Exhibit 12 shows the amount of salary costs we identified as
unallowable because the positions charging costs to the grant were not
approved in the grant budget for each award. 15

                       Exhibit 12: Unallowable Salary
                  Charged to DOJ Grants through June 2008

                      Award Number                    Unallowable Salary
                           Bureau of Justice Assistance
             2001-GP-CX-K050                                $ 410
             2006-CP-BX-K002                                  4,023
             2007-DD-BX-K042                                  5,391
             2007-GP-CX-K004                                     13
             Office of Juvenile Justice and Delinquency Prevention
             2005-MU-FX-0012                                     67
             2007-CI-FX-K005                                    921
                           National Institute of Justice
             2004-DN-BX-K017                                  3,214
                        Office on Violence Against Women
             2004-WT-AX-K047                                    919
                        OJP Total                          $14,039
                        OVW Total                            $ 919
                           Total                           $14,958
            Source: OIG analysis NDAA accounting and labor records

      Because the NDAA used grant funds to pay for labor costs associated
with personnel who have not been approved to work on grant projects, we
recommend that OJP remedy the $14,039 in unallowable salary charges and
OVW remedy the $919 in unallowable salary charges as questioned costs.

       Personal and Holiday Leave

      According to the NDAA, vacation and sick time are components of the
fringe allocation, while personal and holiday leave are direct charges to a
grant. Because the NDAA treats costs associated with providing personal
and holiday time off as direct charges, the NDAA needs to use a consistent
and verifiable method, such as a pro-rata distribution based on direct time
worked, to support allocating these costs to a grant. 16 However, the NDAA

       15
         For the eight grants that we determined had unallowable salary charges, see
Appendix IV for the detail by award of the individual salary charges.
       16
            OMB Circular A-122 states that regular compensation paid to employees during
periods of authorized absences from the job, such as vacation leave, sick leave, military
leave, and the like, are allowable, provided such costs are absorbed by all organization
activities in proportion to the relative amount of time or effort actually devoted to each.


                                             20
	
had neither policies in place nor a method or formula for calculating the
percentage of time its employees should charge to DOJ grants for holiday or
personal time. Exhibit 13 details charges for holiday and personal time
through the period under review.

    Exhibit 13: Holiday and Personal Charges through June 2008

        Award Number                   Holiday           Personal
                         Bureau of Justice Assistance
        2001-GP-CX-K050                     $    5,229              $   1,314
        2006-DD-BX-K272                          5,979                    622
        2006-CP-BX-K002                            388                    237
        2007-DD-BX-K042                         34,939                  8,732
        2007-DD-BX-K173                            256                    253
        2007-GP-CX-K004                            454                      -
        2007-CP-BX-K002                              -                      -
           Office of Juvenile Justice and Delinquency Prevention
        2005-MU-FX-0012                          6,132                  1,302
        2007-CI-FX-K005                         19,903                  4,122
        2007-JL-FX-K005                              -                      -
                          National Institute of Justice
        2004-DN-BX-K017                         12,120                  1,901
        2007-DN-BX-0011                            136                      -
                          Office for Victims of Crime
        2007-VF-GX-K012                              -                      -
                     Office on Violence Against Women
        2004-WT-AX-K047                         14,894                  4,089
        2005-EW-AX-K002                          9,247                  1,949
        2007-TA-AX-K027                              -                      -
      Subtotal for OJP                     $85,536                  $18,483
      Subtotal for OVW                     $24,141                   $6,038
      Total                               $109,677                  $24,521
      Source: NDAA personnel records




                                         21
	
      NDAA employees charged a total of $109,677 for holiday time and
$24,521 in personal time through June 2008 for the 16 grants. Because the
NDAA did not have a policy in place for charging or allocating such time or a
method for determining the amount of time an employee should charge for
holiday or personal leave, we were unable to verify the accuracy of these
charges. In addition, we could not determine whether the personal or
holiday leave charged to grants was reasonable, considering the amount of
direct time each employee worked on grant projects. For example, we noted
instances where employees charged personal or holiday time to an award,
but had not charged any regular time. Therefore, we recommend that OJP
remedy $85,536 in unsupported holiday charges and $18,483 in
unsupported personal leave charges, and OVW remedy $24,141 in
unsupported holiday charges and $6,038 in unsupported personal leave
charges.

     Fringe Benefits

      When NDAA employees work on grant projects, the NDAA incurs costs
associated with providing its employees fringe benefits such as health
insurance, pensions, parking, vacation leave, and sick leave. To allocate the
cost of fringe benefits to DOJ grants, the NDAA has calculated and OJP has
approved a fringe benefit rate that the NDAA can apply to direct costs.

      As shown by Exhibit 14, the NDAA charged nearly $1.5 million to the
audited DOJ grants based on provisional and final fringe benefit rates.




                                     22
	
       Exhibit 14: NDAA Fringe Benefit Charges to DOJ Grants

                 Award Number               Fringe Benefit Charges
                         Bureau of Justice Assistance
                2001-GP-CX-K050                              $330,708
               2006-DD-BX-K272                                 48,760
                2006-CP-BX-K002                                16,426
               2007-DD-BX-K042                                140,761
               2007-DD-BX-K173                                 15,997
                2007-GP-CX-K004                                 8,371
                2007-CP-BX-K002                                     -
           Office of Juvenile Justice and Delinquency Prevention
                2005-MU-FX-0012                               126,842
                2007-CI-FX-K005                               164,059
                2007-JL-FX-K005                                 5,575
                         National Institute of Justice
                2004-DN-BX-K017                               184,877
                2007-DN-BX-0011                                 4,592
                          Office for Victims of Crime
                2007-VF-GX-K012                                   720
                      Office on Violence Against Women
               2004-WT-AX-K047                                368,687
               2005-EW-AX-K002                                 80,863
                2007-TA-AX-K027                                     -
                      Total                                $1,497,238
        Source: OIG review of NDAA’s financial records from the inception
        of each grant through June 2008

       We analyzed the final and provisional fringe rate calculations
submitted by the NDAA and approved by OJP, and found math errors in the
rate calculation. Our analysis of the costs included in the pool of expenses
used to calculate the fringe benefit rate revealed that the NDAA
inconsistently classified parking expenses, either as a direct charge, as part
of its fringe allocation, and sometimes as both direct charges and through
the fringe rate. For the FY 2009 provisional rates, the NDAA categorized
parking expenses as an “overhead” cost rather than a fringe benefit cost. In
addition, in FY 2006, the NDAA included personal and holiday time in the
expense pool it used to calculate its fringe rate, even though NDAA officials
told us that costs associated with personal and holiday leave were direct
expenses.




                                         23
	
        OMB Circular A-122 states that a cost is allocable to a federal award if
it is treated consistently with other costs incurred for the same purpose in
like circumstances. The irregularities we noted with regard to the costs in
the NDAA’s fringe benefit pool adversely affect the accuracy of its final and
provisional fringe rate calculations. Due to the discrepancies and
inconsistent types of charges, we do not believe it reasonable for NDAA to
allocate fringe benefits costs to the DOJ awards using the OJP approved
fringe benefit rates. We consequently consider any charges made to DOJ
grants based on the OJP approved fringe benefit rates as unsupportable
costs. Therefore, we recommend that OJP remedy $1,047,688 and OVW
remedy the $449,550, the amounts NDAA charged to each awarding
agency’s grants based on its erroneous fringe benefit rate.

Accountable Property

      The Financial Guide requires that property purchased with federal
funds be adequately protected from loss, maintained via serial number or
other identification number, inventoried at least once every 2 years, labeled
with the source of the funding, and recorded as to indicate the use and
condition of the property. Additionally, the Financial Guide specifies that
allowable costs must be reasonable, allocable, necessary to the project, and
comply with the funding statute requirements. These requirements help
ensure that accountable property purchased with federal funds are being
used for grant purposes, and not for private or personal use.

       Prior to 2008, the NDAA maintained an electronic spreadsheet that
listed accountable property items such as desktop and laptop computers.
Beginning with its 2008 inventory, the NDAA used a computer program to
inventory accountable property. We found that NDAA was conducting
inventories every 2 years, and maintained a database of the property it
purchased. However, the NDAA did not differentiate between accountable
property purchased with federal funds and property purchased with other
funding sources. In addition, the NDAA had no policies that ensured that its
employees used accountable property purchased with federal funds properly
for grant-related purposes. Without these controls, the likelihood that NDAA
employees may misuse federally funded accountable property increases.
Therefore, we recommend that OJP ensure that NDAA implements
accountable property procedures that adequately tracks and safeguards
items purchased with DOJ grant funds.




                                       24
	
      The Financial Guide states that grantees can use awards to purchase
computers, but that computer purchases require prior approval from the
granting agency. In reviewing the approved budgets of the 16 awards, only
4 budgets permitted the NDAA to use DOJ funds to buy desktop and laptop
computers. As illustrated in Exhibit 15, we found that the NDAA allocated
computer charges to two awards whose budgets did not include any
approval to purchase computers with grant funds.

           Exhibit 15: Tested Accountable Property by Award

                                        Was Accountable     Purchase
                Did Budget Approve     property able to be   Price of
  Number of    Accountable Property        physically      Accountable    Questioned
  Computers    Purchases? (Yes/No) verified? (Yes/No)       Property         Cost
                Bureau of Justice Assistance Award: 2001-GP-CX-K050
       1               Yes                    Yes                 1,975            -
       2               Yes                    Yes                 2,397            -
       3               No                     No                  3,501        3,501
       4               No                     No                  2,884        2,884
       5               No                     No                  1,996        1,996
                                          Subtotal for BJA      $12,753      $8,381
    Office of Juvenile Justice and Delinquency Prevention Award: 2007-CI-FX-K005
      1                  No                    Yes                1,522        1,522
    Office of Juvenile Justice and Delinquency Prevention Award: 2007-JL-FX-K005
      1                  Yes                   Yes                1,522            -
      2                  Yes                  N/A*                    -
                               Subtotal for OJJDP Awards      $3,044          $1,522
              Office on Violence Against Women Award: 2005-EW-AX-K002
       1                 Yes                    Yes            1,856               -
       2                 Yes                    Yes              848               -
       3                 Yes                    Yes              848               -
              Office on Violence Against Women Award: 2005-EW-AX-K002
       1                 Yes                   N/A*                -
                                  Subtotal for OVW Award      $3,552
                                   Subtotal for OJP Award    $15,797          $9,903
                                                     Total   $19,349          $9,903
 Source: OIG analysis of accountable property budgets and expenditures
 * Computers not purchased.




                                         25
	
      The accounting records for grant 2001-GP-CX-K050 indicate that the
NDAA purchased five computers; however, the NDAA was only approved to
purchase two computers with grant funds. This meant that NDAA did not
have the required approval to purchase the remaining three computers. In
addition, we could only physically verify two of the five computers the NDAA
purchased with grant funds because the NDAA could not locate the
remaining three during audit fieldwork. Since the NDAA does not follow
procedures to track or account for property purchased with federal funds
separately, the NDAA could not determine which computers it purchased
under grant 2001-GP-CX-K050. As a result, the audit team could not
determine if the computers were reasonable or necessary to the grant’s
project. Therefore, we recommend OJP remedy the $8,381 cost of
computers NDAA purchased without approval and could not locate for
physical inspection by OIG auditors.

      Similarly, the approved budget for grant 2007-CI-FX-K005 did not
include award agency approval to purchase a computer. Our review of this
grant’s general ledger identified that NDAA used grant funds to buy one
computer that cost $1,522. While we physically verified this computer and
ensured that it was being used on grant-related projects, the purchase of
this computer was not allowed because the NDAA did not receive prior
approval from OJP. Therefore, we recommend that OJP remedy the cost of
the computer as unallowable costs totaling $1,522.

Travel Costs

      The Financial Guide categorizes travel costs as allowable so long as the
travel is for official, award-related business. Grantees must also incur and
track travel costs charged to grants in accordance with federal or
organizationally approved travel policies. According to NDAA’s employee
handbook, employees must receive authorization to incur grant-related
travel costs. To receive reimbursement for authorized travel costs,
employees need to prepare a travel voucher that itemizes travel-related
expenses after they have completed their trip. Supervisors and executives
then review each travel voucher for accuracy and completeness and submit
the vouchers for payment.




                                     26
	
      To determine whether NDAA ensured that its travel costs were 

properly authorized and adequately documented, we judgmentally selected a
sample of travel expenditures charged to each grant. For each sampled
transaction, we determined whether the employee incurring the cost
received written authorization to be on travel, whether a travel voucher was
prepared, and whether the cost was adequately supported.17

      As shown by Exhibit 16, we tested 70 transactions totaling $255,222
and identified $253,871 in travel transactions that lacked either an
authorization, travel voucher, or adequate documentation.




       17
           We selected 5 travel transactions from each grant. If the grant did not have at
least 5 travel transactions, we tested all of the applicable travel transactions. In one case,
we expanded testing for grant 2007-DD-BX-K042 to include the five highest-dollar
transactions.


                                              27
	
                          Exhibit 16: Summary of NDAA Travel Cost Transaction Testing

                                                                                           Transactions without
                   Travel Transactions   Transactions without       Transactions without        Supporting
                                                                                                                      Total
                         Tested             Authorization                Vouchers             Documentation
                                                                                                                   Questioned
 Award Number      Number     Amount     Number        Amount       Number      Amount     Number      Amount        Costs*
                                                  Bureau of Justice Assistance
2001-GP-CX-K050       5         $14,056      5            $14,056      4           $13,938    3          $13,579       $14,056
2006-DD-BX-K272       5           4,068      5              4,068      1             3,846                               4,068
2006-CP-BX-K002       5          13,403      5             13,403      5            13,403                              13,403
2007-DD-BX-K042       7         100,636      7            100,636      6           100,261    5            8,439       100,636
2007-DD-BX-K173       5          10,454      5             10,454      2            10,351                              10,454
2007-GP-CX-K004       5             990      -                   -     1               423                                 423
2007-CP-BX-K002       -               -      -                   -     -                 -                                   -
                                    Office of Juvenile Justice and Delinquency Prevention
2005-MU-FX-0012       5           3,056      5              3,056      3             2,810    1              222         3,056
2007-CI-FX-K005       5           8,817      4              8,351      2             8,219                               8,351
2007-JL-FX-K005       2           1,460      2              1,460      2             1,460                               1,460
                                                  National Institute of Justice
2004-DN-BX-K017       5           4,082      5              4,082      3             2,886    2            2,337         4,082
2007-DN-BX-0011       5           2,886      4              2,796      2             2,664                               2,796
                                                   Office for Victims of Crime
2007-VF-GX-K012       1             877      1                877      1               877                                877
Subtotal for OJP     55        164,785      48           163,239      32          161,138    11          24,577       163,662
                                               Office on Violence Against Women
2004-WT-AX-K047       5           9,147      4              8,743      3             6,506                               9,147
2005-EW-AX-K002       5           1,759      1                221      5             1,759                               1,759
2007-TA-AX-K027       5          79,531      2             57,578      4            79,303                              79,303
Subtotal for OVW     15         90,437       7            66,542      12           87,568                              90,209
      Totals         70       $255,222      55         $229,781       44         $248,706    11         $24,577      $253,871
Source: OIG analysis of NDAA travel transaction authorizations
* The Exhibit above reflects the results of multiple tests performed and indicates there may be more than one reason why the
transaction dollars were questioned; however, the amount of questioned costs only reflects the questioning of transaction
dollars once.




                                                             28
	
      The following sections detail the specific types of issues our testing
revealed with regard to travel costs the NDAA charged to the audited DOJ
grants.

       Unauthorized Travel Charges

      NDAA’s Employee Handbook states that business travel requires prior
approval from a supervisor and member of the executive staff before an
employee can incur reimbursable travel costs. Additionally, in 13 budget
narratives, NDAA explicitly stated that it was their policy to have all staff and
consultant travel approved by a member of NDAA’s Executive Staff prior to
making travel arrangements. We found 55 out of 70 travel transactions, or
79 percent of the tested award-related travel costs, did not have written
authorizations. NDAA officials explained that many of the required approvals
were provided verbally. However, without written approval that documents
the reason for travel and the dates employees are allowed to travel, the
potential for abusing grant funds by incurring unnecessary travel expenses
increases. For instance, lacking written authorizations that describe the
purpose of the trip, per diem costs, and the dates of travel, NDAA cannot
ensure its travelers only include actual travel costs related to the project on
submitted travel vouchers. Furthermore, without authorizations, we were
not able to verify that its travelers were permitted to incur the expense on
behalf of NDAA or if the travel was for an official grant purpose.

       Unvouchered Travel Charges

       Despite the lack of written authorizations, we continued our
transaction testing of travel vouchers to ensure the proper reimbursement of
expenses. Vouchers are an important part of the travel cost reimbursement
not only because vouchers ensure that employees received reimbursement
for travel costs, but also because they serve as a method to confirm that
official travel actually occurred.

      Prior to July 2008, NDAA did not have a written policy for submitting
vouchers. According to the Financial Guide, if recipients do not have a
written travel policy they must follow the Federal travel policy, which
requires the use of authorizations and travel claims or vouchers. We found
44 out of 70 transactions, or 63 percent of tested transactions, were not
evidenced on travel vouchers. 22 NDAA officials stated that if someone did
not complete the pre-paid travel, then a staff member would be aware of the

       22
           NDAA did not require employees to submit vouchers that detail which traveler
incurred specific airline or hotel expenses because NDAA paid airline and hotel expenses
directly to the vendor and not to an individual.
                                      29
                            NOT FOR PUBLIC RELEASE
situation. Nevertheless, this method does not comply with the Federal travel
policy and without travel vouchers NDAA members have to rely on the
collective memory of staff members to ensure that travel occurred. In our
judgment, this method is unreliable and does not provide the documentation
necessary for NDAA to perform an accurate reconciliation of travel expenses.

     Travel Charges Lacking Supporting Documentation

      We also tested travel expenditures for supporting documentation, such
as invoices and receipts, to determine whether the travel expense was
reasonable, allocable, and allowable. We identified 11 transactions totaling
$24,577 that lacked the evidence necessary to support the expenses, as
described below.

  •	 2001-GP-CX-K050. Out of the five travel transactions tested for grant
     2001-GP-CX-K050, the NDAA could not provide supporting
     documentation, such as receipts and invoices, for three transactions
     totaling $13,579. Without any documentation for these transactions,
     we could not determine if these expenses were reasonable and
     allowable.

  •	 2005-MU-FX-0012. Our review of the transactions for grant 2005-MU-
     FX-0012 found one transaction for $222 that the NDAA misclassified as
     travel. The transaction was for a catered lunch and there was no
     documentation supporting that this lunch was for travel purposes. We
     asked NDAA officials about this transaction, and they explained that it
     was most likely a misclassification.

  •	 2004-DN-BX-K017. Out of the five travel transactions tested for grant
     2004-DN-BX-K017, NDAA could not provide us with supporting
     documentation, such as receipts and invoices, for two transactions
     totaling $2,337. Without any documentation for these transactions,
     we could not determine if the expenses were reasonable and
     allowable.

      Our review of the travel transactions also revealed that the NDAA was
not able to provide adequate supporting documentation for $8,439 in hotel
lodging for five out of seven tested transactions for grant no. 2007-DD-BX-
K042.




                                    30
	
       Although the Department of Justice’s Executive Office for U.S.
Attorneys (EOUSA) allows the NDAA to use its classrooms and lecture halls
at the National Advocacy Center (NAC) free of charge, the NDAA is still
required to pay the EOUSA for instructors and participants that stay
overnight in lodging rooms at the NAC. The EOUSA sends the NDAA an
invoice each month when NDAA personnel and attendees stay overnight at
the NAC. Because EOUSA charges NAC lodging costs at a flat rate per room
per night, the invoice lists the total number of rooms used by NDAA class
participants, the rate charged for each room, and the total amount NDAA
owes for lodging. The NDAA maintains a separate accounting of how many
rooms listed on each invoice were used by students and how many were for
instructors. It subsequently makes two entries on its general ledger to pay
for EOUSA lodging invoices – one for student lodging costs and another for
faculty lodging costs.

       Our travel cost sample found five lodging charges that had differences
between what NDAA charged to grant 2007-DD-BX-K042 and the supporting
documentation. For example, in one transaction for student lodging, NDAA
charged $14,703 for lodging to the grant. Our review of the invoice from
EOUSA and student applications found that only $12,615 should have been
charged to the grant for lodging. As a result, NDAA charged $2,088 more to
the grant than it should have to pay expenses on this invoice. Exhibit 17
lists the five transactions for grant number 2007-DD-BX-K042 we
determined did not align to NAC invoices or other supporting documents.

             Exhibit 17: Summary of NAC Lodging Charges for

                          Grant 2007-DD-BX-K042


                                                           Supported
                        Transaction       Charged to       By Invoices    Difference
   Transaction             Date            Grant ($)           ($)            ($)
Student Lodging           11/28/2007           14,703            12,615           2,088
Student Lodging            1/23/2008           19,575            16,704           2,871
Student Lodging            1/23/2008           17,748            15,225           2,523
Faculty Lodging            1/31/2008            2,001             8,091         (6,090)
Student Lodging            1/31/2008           45,849            38,802           7,047
                              Totals        $ 99,876          $ 91,437         $ 8,439
Source: OIG analysis of student and faculty lodging transactions

       NDAA officials explained to us that the difference between the amount
it charged to the grant and the amount listed on lodging invoices and
supporting documents in these instances was caused by “coding errors” or
“miscoding.” NDAA officials claimed that personnel had incorrectly
calculated the number of nights that faculty or students stayed at the NAC.


                                            31
	
As a result of this miscoding, NDAA charged the grant $8,439 in lodging
costs that were not invoiced.

      Because five out of seven tested transactions associated with lodging
costs for this grant were found to be in error, we are concerned with NDAA’s
tracking of lodging costs it charges to DOJ grants. We believe that NDAA
should implement procedures that will ensure that accurate and allowable
lodging costs are charged to DOJ grants.

       In summary, we recommend that OJP remedy $163,662, and OVW
remedy $90,209 for travel transactions as questioned costs because these
expenditures were either not authorized, supported by a voucher, or contain
the necessary documentation to support the expense. To safeguard DOJ
grant funds, we also recommend that OJP ensure that NDAA implements a
travel policy that: (1) requires employees to submit and receive approval
for travel before incurring travel costs that subsequently are reimbursed with
DOJ grant funds; (2) require vouchers to be prepared for all DOJ grant
funded travel; and (3) requires retention of all supporting documentation
such as receipts and airline tickets. Further, we recommend that OJP
require that the NDAA evaluate how it tracks lodging costs charged to DOJ
grants, and institute controls that ensure accurate charging of lodging costs.

Indirect Costs

       Indirect costs are those that have been incurred for common or joint
objectives and cannot be readily identified with a particular final cost
objective such as a grant or contract. The NDAA indicates that their indirect
costs include administrative salaries and benefits, printing, telephone,
supplies, postage, leases, insurance, rent, audit, and property taxes.
Because these indirect costs cannot be easily identified to specific projects or
activities, organizations need to establish and seek approval for an indirect
cost rate with their cognizant federal agency to receive payment for indirect
expenses. However, the Financial Guide states that if a recipient does not
have an approved indirect cost rate, funds budgeted for indirect costs cannot
be recoverable until a rate is approved.

       To obtain an approved indirect cost rate, a grant recipient must first
prepare and submit an indirect cost rate proposal to the cognizant Federal
agency for approval. This rate proposal outlines what costs encapsulate its
indirect cost pool, establishes an estimated percentage it proposes to charge
on direct costs to receive payment for its indirect expenses, and a
certification stating that the cost plan includes only allowable costs.
According to the limitations listed in the indirect cost agreement template,
DOJ’s acceptance of the indirect cost rates is predicated on whether:


                                      32
	
(1) indirect costs are not claimed as direct costs, and (2) the grantee’s
proposal accords consistent accounting treatment to similar types of costs.
Further, the agreement letter provides that, once agreed to, the organization
can apply the indirect cost to all locations and all programs.

      Our audit found that the NDAA charged a total of $1,478,505 to the
audited DOJ grants based on provisional and final indirect cost rates
approved by OJP. Exhibit 18 details the indirect costs the NDAA charged to
each grant.

              Exhibit 18: Summary of Indirect Cost Review

                                                     Indirect Cost
                    Award Number                       Claimed 23
                             Bureau of Justice Assistance
              2001-GP-CX-K050                                $434,976
              2006-DD-BX-K272                                  39,827
              2006-CP-BX-K002                                  12,779
              2007-DD-BX-K042                                 117,067
              2007-DD-BX-K173                                  12,919
              2007-GP-CX-K004                                   6,760
              2007-CP-BX-K002                                        -
               Office of Juvenile Justice and Delinquency Prevention
              2005-MU-FX-0012                                 125,784
              2007-CI-FX-K005                                 132,498
              2007-JL-FX-K005                                   4,502
                             National Institute of Justice
              2004-DN-BX-K017                                 191,480
              2007-DN-BX-0011                                   3,709
                              Office for Victims of Crime
              2007-VF-GX-K012                                     581
                          Office on Violence Against Women
              2004-WT-AX-K047                                 407,466
              2005-EW-AX-K002                                  20,416
              2007-TA-AX-K027                                        -
                Subtotal for OJP Awards                     $1,071,039
               Subtotal for OVW Awards                         407,466
                            Overall Total                   $1,478,505
             Source:		 NDAA’s financial records from the grant inception to
                       June 2008 and the negotiated indirect cost agreement.

      As detailed in the following sections, we found that the NDAA did not
submit proposals for indirect cost rates in a timely manner, and the
calculation and application of the indirect rate appears to be flawed.

      23
         The indirect charges expended on grants, 2007-GP-CX-K004, 2007-JL-FX-K005,
2007-VF-GX-K012 and 2005-EW-AX-K002 are questioned costs under the budget
management and control section of the report.


                                          33
	
       Untimely Indirect Cost Rate Proposal Submissions

      The Financial Guide states that grantees requesting payment for
indirect costs should submit provisional indirect rate proposals in a timely
manner (within 6 months after the end of the grantee’s fiscal year) to assure
recovery of the full amount of allowable indirect costs. Once approved by an
awarding agency, the agency can charge its indirect cost rate against costs
incurred by performing award-related activities.

      The NDAA merged with the National College of District Attorneys
(NCDA) in November 2005 and the American Prosecutors’ Research Institute
(APRI) in October 2006. Prior to these mergers, the APRI, NCDA, and NDAA
were separate entities and therefore would have required separate indirect
cost rates. Following the merger, the NDAA’s FYs 2007 and 2008 OMB
Circular A-133 single audits found that the NDAA needed to calculate and
submit a new indirect rate proposal to OJP to recover indirect costs. 24

       Instead of calculating and submitting a new indirect rate proposal after
these mergers, the NDAA continued to use the APRI’s provisional FY 2005
indirect rates for its DOJ awards until August 2008. We found that NDAA did
not submit its FYs 2006, 2007 and 2008 provisional indirect rate proposals
until September 2008 - 21 months late for 2006, 18 months late for 2007,
and 6 months late for 2008. OJP-approved NDAA provisional rates for FYs
2006 and 2007 in December 2008, and approved final rates for these FYs in
January 2009. However, even though it did not have an approved
provisional or final indirect cost rate, the NDAA continued to charge indirect
costs to three of its DOJ grants – 2007-DD-BX-K173, 2007-CI-FX-K005,
2007-DN-BX-0011.

       Analysis of NDAA Indirect Cost Rate Proposals

      We reviewed the supporting documents provided by the NDAA to
calculate its final or provisional indirect cost rate for FYs 2004 through 2009.
Exhibit 19 summarizes our concerns with the NDAA’s indirect cost rate
proposals.




       24
           The single audit further highlighted that NDAA grant projects lacked managerial
oversight over the accounting process and recommended that NDAA establish and maintain
an effective accounting system that ensures compliance with indirect cost requirements.
Additional information on the NDAA’s single audit is presented in Appendix I.


                                            34
	
                Exhibit 19: Summary of Indirect Rate Issues

                                   Final   Final    Final   Final   Provisional   Provisional
         Possible Error            2004    2005     2006    2007       2008          2009
Indirect Cost Rate based on
only APRI costs.                   N/A      N/A                                     
Inconsistent treatment of like
and similar costs.                                                                
Error in fringe rate calculation
that impacts indirect cost pool.                                                    
Single audit had findings -
cannot verify these were taken
into consideration with the rate
calculation.                                                      
Based on the documentation
provided to support the rate we
cannot validate many of the                                                           
costs.
Source: OIG Review of FYs 2004 – 2009 fringe and indirect cost rate submissions

      The following sections details the specific types of issues our audit
revealed with regard to NDAA’s indirect costs.

       Indirect cost rate based on only APRI costs. The NDAA received
approval from OJP to apply a single indirect cost rate for all its programs or
awards. 25 However, the NDAA’s use of a single indirect rate does not appear
to be equitable because: (1) the NDAA’s “units” do not benefit from its
indirect costs to the same degree, and (2) one unit of NDAA – the NAC – has
a Memorandum of Understanding (MOU) with DOJ that states the NDAA may
not allocate indirect costs to that DOJ funding partly because DOJ furnishes
some personnel and operating costs for the facility. 26 As depicted in Exhibit
20, the FY 2008 provisional indirect rate documentation illustrates that the
individual unit indirect cost rates varied considerably. Further the approved

       25
          According to OMB Circular A-122, Cost Principles for Non-Profit Organizations, a
non-profit organization may compute its indirect cost rate using simplified allocation
procedures if it has only one major unit, or if all its major units benefit from its indirect
costs to approximately the same degree. Simplified allocation procedures are described as
identifying the organization’s total indirect costs for a period and then dividing the total
allowable indirect costs by an equitable distribution base (in this case direct salaries and
associated fringe benefits). In some instances a single indirect cost rate may not be
appropriate since it would not take into consideration different factors that may
substantially affect the indirect costs.
       26
          On July 22, 1996, DOJ and NDAA signed a MOU that provided DOJ funding for and
defined DOJ’s and NDAA’s roles and responsibilities in providing legal education and training
to prosecutors and litigation staff. DOJ provides funds for personnel compensation, travel
and per diem for instructors and students, operating expenses and other direct expenses,
for programs presented at the NAC.


                                             35
	
indirect rate was not calculated on total indirect costs divided by total direct
salaries and fringe benefits, but appears to be based on the indirect costs
and direct salaries and fringe benefits of only one unit - APRI.

      Exhibit 20 Comparison of FY 2008 Provisional Indirect Rates by
                NDAA Units vs. Approved Indirect Rate

                                       Calculated      Approved
                  Unit of NDAA            Rate           Rate
                 APRI                   39.23%          39.23%
                 NDAA                   65.24%          39.23%
                 NCDA                   51.67%          39.23%
                 NAC                    29.13%          39.23%
                 Composite Rate         41.40%          39.23%
                Source: FY 2008 Indirect Cost Rate for NDAA

      Inconsistent treatment of like and similar costs. Our review of the
indirect cost rates noted instances where like and similar costs were
inconsistently treated. For example:

      •	 The FY 2009 provisional indirect cost rate calculation included
         employee parking in the indirect pool rather than the fringe benefit
         pool where it was historically.

      •	 In the Budget Narrative of 2007- DD-BX-K042 and 2007-VF-GX-
         K012, the NDAA requested as direct charges routine printing,
         postage, and supplies; telephone, equipment maintenance, rent;
         audit; payroll processing; depreciation; and insurance. However,
         these costs are also included in the NDAA’s indirect rate.

      •	 In the budget narrative of 2007-DD-BX-K173 and 2004-WT-AX-
         K047, the NDAA requested as direct costs routine postage, printing,
         and supplies; telephone; equipment maintenance; and equipment
         lease. These costs are also listed in the NDAA’s budget description
         as indirect expenditures.

      Errors in the calculation of indirect costs. In reviewing the NDAA
provisional or final indirect rates, we noted what appears to be calculation
errors in the supporting documentation. For example, the provisional
indirect rate data provided by the NDAA for FYs 2009, 2008, 2007, 2006,
and 2004 did not include a portion of direct salaries or the allocated fringe
benefits in the calculation of indirect cost allocation bases. This resulted in
an overstated indirect cost rate. The data provided for the FY 2005



                                        36
	
calculation appears to overstate the direct salary and fringe benefit
allocation base.

       Single Audit Findings. In the NDAA’s 2007 Single Audit Report, the
auditors noted that the NDAA lacked specific controls addressing federal
grant accounting procedures and a lack of management oversight over its
accounting transactions. The auditors recommended that the NDAA
establish and maintain an effective accounting system that ensures
compliance with indirect cost requirements determined by DOJ. We are
concerned that OJP approved final indirect rates for FYs 2007 and 2008 even
though this recommendation was not implemented as of the 2008 Single
Audit.

     Finally, we were unable to validate many of the costs in the 2008 and
2009 provisional rate because the documentation did not provide the
methodology used to calculate the cost estimates.

      In summary, we do not believe the indirect cost rates approved by OJP
are accurate, equitable, or adequately supported. We therefore recommend
that OJP remedy $1,071,039 and OVW remedy the $407,466 in
unsupportable indirect charges as questioned costs. We further recommend
that OJP ensure that the NDAA implements procedures to calculate indirect
cost rates accurately and that these procedures consider the unique
circumstance that NDAA does not incur indirect costs with regard to its use
of the NAC facility.

Grant 2007-DD-BX-K042 Pre-Agreement Costs

      Although the performance period of Grant no. 2007-DD-BX-K042 was
approved for September 1, 2007, in August 2007, the NDAA requested that
OJP approve $665,000 in pre-agreement costs for the 6-month period
between March 1, 2007 and August 31, 2007. The purpose of these costs
was to support the grant-related training courses listed in Exhibit 21 that the
NDAA had already offered at the NAC.

                Exhibit 21: NDAA Pre-Agreement Courses

                         Course                                 Date Held
Evidence Based Prosecution of Domestic Violence Cases       March 5-9, 2007
Childproof                                                 March 18-23, 2007
Lethal Weapon                                              April 16-20, 2007
DNA: True Identity                                        April 30-May 4, 2007
Courtroom Technology                                      August 27-30, 2007
Source: OJP



                                      37
       According to OMB Circular A-122, pre-award costs are those incurred
prior to the effective date of the award directly pursuant to the negotiation
and in anticipation of the award where such costs are necessary to comply
with the proposed delivery schedule or period of performance. Such costs
are allowable only to the extent that they would have been allowable if
incurred after the date of the award and only with the written approval of
the awarding agency. OJP approved NDAA’s request to charge $665,000 in
pre-award costs to grant 2007-DD-BX-K042 on September 8, 2007, or just
about a week after the award’s performance period began. OJP approved
the pre-agreement costs by specific budget categories.

      OJP’s categorical approval for the pre-agreement costs did not detail
what specific expenses the NDAA would be allowed to charge under each
cost category or the methodology used to arrive at the proposed amount.
Further, the agreement did not specify that the costs were necessary to
comply with the proposed delivery schedule or period of performance.
Lacking this information, we had limited criteria to apply in determining
whether NDAA accurately and appropriately allocated its pre-award costs to
grant the pre-award costs of $665,000. However, considering the costs
were incurred prior to NDAA requesting the pre-agreement costs it is
reasonable to infer that the NDAA should have the necessary records to
support the claimed pre-agreement costs by cost category.

      As shown in Exhibit 22, we compared the approved pre-award cost
categories to the supporting documentation provided by the NDAA and found
that NDAA’s actual cost documentation did not correspond to the approved
pre-award costs. For example, the pre-award cost agreement specified
$38,900 in “Contractual” costs but the actual pre-agreement contractual
expenditures charged to the grant were $305,647 a difference of
$266,747.27 Additionally, although NDAA did not request any overhead costs
in the approved pre-award costs, we found that NDAA charged $47,659 for
overhead expenses. According to the agreement between the DOJ and the
NDAA, the NDAA should not charge overhead expenses for activities that
occur at the NAC because the DOJ provides personnel and operating costs.




      27
            The NDAA included student and faculty travel costs in the contractual cost
category.


                                              38
	
                Exhibit 22: Categories of Pre-Agreement Costs

                           Approved
                           Amount of
                            Costs By
                            Category            Actual Costs     Difference
      Category                 ($)                  ($)              ($)
  Direct Personnel               311,183             $213,177       $(98,006)
  Fringe                         123,198               75,093        (48,105)
  Travel                         101,303                1,967        (99,336)
  Supplies                         10,015               9,226           (789)
  Contractual                      38,900             305,647         266,747
  Other                            80,401              12,231        (68,170)
  Overhead                              -              47,659          47,659
  Total                        $665,000             $665,000
  Source: OJP and NDAA spreadsheet for pre-agreement costs


      Our analysis of the $665,000 in pre-agreement costs also sampled
three Contractual (travel) transactions totaling $262,893. To calculate these
charges, NDAA officials explained that they totaled the participant lodging,
per diem, and facility lodging costs it incurred from March 2007 through
June 2007. The NDAA then charged a percentage of these totals (67.2
percent) to the grant as pre-agreement costs. Exhibit 23 presents the total
amount of each type of cost and the results of NDAA’s application of the
67.2 percent rate to these costs.

             Exhibit 23: Pre-Agreement Travel Transactions

                                Total Expenses                Total
                                 from March –    Percentage Charged to
      Transaction                  June 2007        (%)       Grant
 Participant Lodging                    $218,109       67.2   $146,569
 Faculty Lodging                          92,987       67.2     62,487
 Participant Per Diem                     80,114       67.2     53,837
 Total                                                       $262,893
 Source: NDAA explanation of pre-agreement travel transactions




                                         39
	
      We spoke to NDAA officials about the rationale of applying the 62.7
percent charge to all facilitator lodging, participant lodging, and per diem
costs and applying the resulting totals to the grant as pre-agreement costs.
NDAA officials did not know what the 62.7 percent allocation was based upon
and could not provide a justification for the method it used to calculate
travel expenses. Because we received no detail regarding the specific
expenses of the pre-agreement costs, we could not confirm whether the
courses included in the pre-agreement constituted 62.7 percent of NDAA
travel activity from March 2007 to June 2007. In addition, we could not
determine whether the contractual travel charges were within the scope of
the grant’s objectives.

       Finally, the NDAA’s single auditors also conducted testing incorporating
four transactions from the $665,000 in pre-agreement costs. Their sample
included travel, salaries, fringe, and payment of the satellite dish. Similarly,
the single auditors found that there was no explanation for the percentage
used to allocate the costs for those transactions. The four transactions they
tested constituted questioned costs totaling $344,181.

      Without detailed criteria and a justification for the percentages used to
calculate pre-agreement travel expenses, we could not determine whether
the NDAA appropriately allocated the tested transactions to the grant.
Expenditures that lack adequate support showing how they were incurred
and calculated may not be allocated to a grant. The findings of the single
auditors, coupled with our assessment of contractual travel costs charged to
the grant as pre-agreement expenses leads us to recommend that OJP
remedy the $665,000 of pre-agreements costs on grant 2007-DD-BX-K042
as unsupportable expenditures.

     Considering the lack of documentation and support provided by the
NDAA concerning this grant and others under our review, we are concerned
about NDAA’s ability to ensure that only allowable and allocable charges are
made to DOJ awards. We further recommend that OJP require that the
NDAA develop procedures that ensure that only supportable and allocable
charges are posted to future DOJ grants.

Program Income

      The Financial Guide defines program income as income generated by
an agency-funded project that may be used to further the program
objectives of the award. Program income may only be used for allowable
program costs under the terms and conditions of the award and must be
expended prior to additional drawdowns.



                                      40
	
       We asked NDAA officials which grants, if any, earned program income.
NDAA officials told us that 5 of the 16 grants earned program income from
registration and honoria fees. As shown by Exhibit 24, the NDAA derived a
total of $449,133 from these 5 grants.

                    Exhibit 24: Program Income Earned

                           Program Income Program Income Listed
          Grant                 Earned         in Approved Budget
                       Bureau of Justice Assistance
   2001-GP-CX-K050                $    2,294              $        0
         Office of Juvenile Justice and Delinquency Prevention
   2005-MU-FX-0012                     1,500                       0
   2007-CI-FX-K005                   127,050                 100,000
   2007-JL-FX-K005                     2,660                       0
                    Office on Violence Against Women
   2004-WT-AX-K047                   315,629                       0
   Total                            $449,133                $100,000
   Source: NDAA Financial Records from the Inception of each grant to June 2008.


      We reviewed the final approved budget for each of the grants that
earned program income and found that of the five grants, the NDAA
reported anticipated program income for only one grant (grant 2007-CI-FX-
K005). In order for OJP and OVW to perform a complete assessment of
funds needed for the award, OJP and OVW need to be able to identify all
sources of funding including program income. We recommend that OJP
ensure that the NDAA develops procedures for estimating program income
on future NDAA grant submissions.

       We tested a judgmental sample of one program income transaction
per grant for four of the five grants. We were able to test only a portion of
program income for grant 2004-WT-AX-K047 and none for grant
2001-GP-CX-K050 because of missing general ledger support due to a server
failure that housed the prior accounting system. Therefore, our testing was
limited to the general ledger support that NDAA could provide. For the
transactions NDAA could provide supporting documentation, we found that
NDAA had program receipts that were credited to their respective grants and
used for grant purposes.




                                          41
	
Recommendations

We recommend that OJP:

 1.		 Require the NDAA to develop and implement written policies and
      procedures that ensure award expenses are accurately reported on its
      FSRs.

 2.		 Require the NDAA to develop accounting system backup procedures
	
      that, at the very minimum, regularly replicate, store off-site, and
	
      otherwise safeguard all financial data related to DOJ grants.
	

 3.		 Require the NDAA to develop and implement drawdown procedures
	
      that ensure consistent drawdowns to meet the minimum needed to
	
      pay for actual or anticipated costs within 10 days of the draw.
	

 4.		 Remedy the $19,258 of unapproved miscellaneous and indirect
	
      expenditures.
	

 5.		 Ensure that the NDAA implement a timekeeping approval process for
      each supervisor to sign off on work done by employees for each
      individual project.

 6.		 Remedy the $3,083 in salary charges for periods associated with grant
      2006-DD-BX-K272.

 7.		 Remedy the $14,039 in unallowable salary charges.

 8.		 Remedy questioned costs of $85,536 in holiday charges

 9.		 Remedy questioned costs of $18,483 in personal charges.

 10.		Remedy the $1,047,688 in unsupported fringe benefits.

 11.		Ensure that the NDAA implements accountable property procedures
      that adequately tracks and safeguards items purchased with DOJ grant
      funds.

 12.		Remedy the $8,381 in the costs of computers for grant
	
      2001-GP-CX-K050.
	

 13.		Remedy $1,522 in the costs of a computer charged to grant
	
      2007-CI-FX-K005.
	



                                     42
	
14.		Remedy $163,662 for travel transactions without written
     authorizations, vouchers or adequate supporting documentation.

15.		Ensure that the NDAA implements a travel policy that requires
     employees to submit and receive approval for travel before incurring
     travel costs that subsequently are reimbursed with DOJ grant funds;
     require vouchers to be prepared for all DOJ grant funded travel; and
     requires retention of all supporting documentation such as receipts
     and airline tickets.

16.		Ensure that the NDAA evaluates how its tracks lodging costs charged
     to DOJ grants, and institute controls that ensure accurate charging
     lodging costs.

17.		Remedy $1,071,039 in unsupported indirect costs.

18.		Ensure that the NDAA implements procedures to calculate indirect cost
     rates accurately and that these procedures consider the unique
     circumstance that NDAA does not incur indirect costs with regard to its
     use of the NAC facility.

19.		Remedy the $665,000 of pre-agreement costs on grant
     2007-DD-BX-K042 to ensure that the amounts are properly supported,
     accurate, and relevant to the grant’s objectives.

20.		Ensure that the NDAA develop procedures for charging only
     supportable and allocable expenses to future DOJ grants.

21.		Develop procedures for estimating program income in future NDAA
     grant submissions.


We recommend that OVW:

22.		Ensure the NDAA develops and implements procedures to timely
     submit progress reports.

23.		Remedy the $20,514 of unapproved miscellaneous expenditures.

24.		Remedy the $919 in unallowable salary charges.

25.		Remedy questioned costs of $24,141 in holiday charges.

26.		Remedy questioned costs of $6,038 in personal charges.


                                    43
	
27.		Remedy the $449,550 in unsupported fringe benefits.

28.		Remedy $90,209 for travel transactions without authorizations or
     vouchers.

29.		Remedy the $407,466 in unsupported indirect charges.




                                   44
	
           SCHEDULE OF DOLLAR-RELATED FINDINGS

QUESTIONED COSTS: 28                                           AMOUNT            PAGE
Unsupported Costs
 Unsupported Salaries                                                 3,083        18

 Holiday and Personal Salaries                                     134,198         20
 Pre-Agreement Costs: 2007-DD-BX-K042                              665,000         37
 Travel                                                            253,871         26
 Fringe Benefits                                                  1,497,238        22
 Indirect Costs                                                   1,478,505        32
    Total Unsupported Costs                                    $4,031,895
Unallowable Costs
 Unapproved Expenditures                                             39,772         13
 Unallowable Salaries                                                14,958         18
 Computers Purchased not Approved                                      9,903        24
    Total Unallowable Costs                                      $ 64,633

TOTAL QUESTIONED COSTS                                       $ 4,096,528




      28
           QUESTIONED COSTS are expenditures that do not comply with legal, regulatory
or contractual requirements, or are not supported by adequate documentation at the time of
the audit, or are unnecessary or unreasonable. Questioned costs may be remedied by
offset, waiver, recovery of funds, or the provision of supporting documentation.


                                           45
	
                                                        APPENDIX I

        OBJECTIVES, SCOPE, AND METHODOLOGY

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grants reviewed were allowable, supported, and
in accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grants. The objective of our audit was to review
performance in the following areas: (1) financial status and progress
reports, (2) drawdowns, (3) budget management and control,
(4) expenditures, and (5) program income.

      We conducted this audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient and appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objectives.

      Our audit concentrated on 16 grants awarded to NDAA by OJP and
OVW. The purposes of these grants are to support various programs with
the intent to offer training and technical assistance to state and local
prosecutors. Our scope included all active DOJ grants as of June 30, 2008.

      We tested compliance with what we considered to be the most
important conditions of the grants. Unless otherwise stated in our report,
the criteria we audit against are contained in the Office of Justice Programs
Financial Guide and the award documents.

      In conducting our audit, we performed sample testing in the following
areas:

   •	 Drawdowns. We analyzed NDAA’s drawdowns for the 16 awards
      from the beginning of each grant period through June 2008. For the
      nine grants that NDAA provided documentation we analyzed the
      individual drawdown period to determine if the federal cash on hand is
      the minimum needed to pay for actual or anticipated costs within 10
      days. For the seven grants that lacked supporting documentation, we
      reviewed the overall drawdown requests to the overall expenditures in
      the general ledger as of June 2008.




                                      46
	
  •	 Payroll. We reviewed NDAA’s policies and spoke with NDAA Officials
     regarding timekeeping and charging personnel costs. To determine
     whether NDAA’s personnel costs were supported and allowed, we
     judgmentally selected 2 non-consecutive pay periods for the 16 grants
     in our audit scope. We analyzed the fringe rate to ensure the charges
     were consistent with the approved rate, and determined whether
     personnel costs were computed correctly, properly authorized,
     accurately recorded, and properly allocated. For OJP grant 2006-DD-
     BX-K272, we found that for the two non-consecutive pay periods we
     tested the general ledger and labor distribution worksheets did not
     coincide. Therefore, we expanded our testing to include two additional
     pay periods; 6/15/2007 and 5/16/2008. We also asked for copies of
     Oracle screenshots to verify whether the timesheets were properly
     authorized. Further, we reviewed the composition and calculation of
     the provisional and final fringe rates and we reviewed the application
     of the fringe rates to the allowable salary costs on each grant.

  •	 Accountable Property. We tested accountable property purchases
     across the 16 grants. Our tests included physical verification of seven
     computers and a determination of whether the computers were used
     for grant purposes.

  •	 Transactions. To test NDAA’s transactions for authorizations,
     vouchers, and supporting documentation of the expense, we
     judgmentally selected five travel transactions from each grant. If the
     grant did not have at least five travel transactions, then we tested all
     of the applicable travel transactions for the grant. We expanded
     testing for grant 2007-DD-BX-K042 to include the five highest-dollar
     transactions.

  •	 Indirect Costs. We reviewed the composition and calculation of the
     provisional and final indirect rates. Additionally, we reviewed the
     application of the indirect rates to the allowable costs on each grant.

  •	 Program Income. We reviewed the final approved budget for each
     of the grants that earned program income. We tested a judgmental
     sample of one program income transaction per grant for four of the
     five grants which earned program income.


      In addition, we reviewed the timeliness and accuracy of Financial
Status and Progress Reports and reviewed the internal controls of the
financial management system. We reviewed progress reports, deliverables,
and spoke with OJP and OVW grant managers.


                                     47
	
      Tate & Tryon, Certified Public Accountants, conducted audits on NDAA.
The results of these audits were reported in the Single Audit Report that
accompanied the Comprehensive Annual Financial report for the years ended
September 30, 2006, 2007, and 2008. The Single Audit reports were
prepared under the provisions of OMB Circular A-133. We reviewed the
auditor’s assessment to identify control weaknesses and significant
noncompliance issues related to the grantee or federal programs. The
auditor’s assessment disclosed NDAA to be a high-risk auditee.

      In reviewing the FYs 2006 through 2008 Single Audits and
accompanying Management letters, we noted several issues that reveal a
lack of management oversight and written procedures, undermining NDAA’s
internal controls. Exhibit 24 summarizes the management letters and the
Single Audit findings.




                                    48
	
                          Exhibit 25: Management Letter and Single Audit Recommendations

 FY                                                          External Audit Communication
                                                              Management Letter
          •   Financial operations lack of oversight. Significant controls and procedures were not followed or performed, and management was
              unaware of and did not respond to the incidents found during the audit.
          •   NDAA failed to complete monthly bank reconciliations.
2006      •   Subsidiary accounting ledgers were not reconciled to the general ledger on a monthly basis.
          •   Nine of 60 transactions tested lacked the proper support for reimbursement on federal grants.
          •   NDAA requested certain drawdowns without proper documentation.
          •   NDAA does not have a formal accounting manual documenting the procedures over federal grant programs.
          •   NDAA’s chart of accounts does not easily segregate federal grant activity form the rest of its operations.
          •   Deficiency in unrestricted net assets.
          •   Follow up on prior years issues indicate:
2007          •    The recommendation concerning NDAA’s chart of accounts was implemented in FY 2007.
              •    The recommendations concerning financial operations, bank reconciliations, subsidiary ledgers reconciling to the general ledger,
                   lack of proper support for reimbursement on federal grants, drawdowns, and a formal accounting manual were not implemented
                   in FY 2007.
          •   Lack of proper internal controls (segregation of duties) over the processing of cash receipts.
          •   Follow up on prior years issues indicate:
2008          •    The recommendations concerning financial operations, bank reconciliations, and subsidiary ledgers reconciling to the general
                   ledger are partially implemented.
              •    The recommendations concerning drawdowns and a formal accounting manual were not implemented in FY 2008.
                                                        Single Audit Recommendations

          •   Establish controls and procedures to ensure NDAA transactions are being properly recorded and reported.
2006      •   Establish controls and procedures to ensure that all items charged against federal grants are in fact allowable and properly supported.
          •   NDAA should clearly document the procedures and controls required for the drawdown process.
          •   NDAA should improve financial close-out procedures and obtain the required OMB A-133 audit within 9 months of the fiscal year end.
          •   Establish and maintain an effective accounting system that ensures compliance with indirect cost requirements determined by DOJ.
2007      •   Establish controls and procedures to ensure that NDAA is meeting all sub-recipient monitoring requirements.
          •   Follow up on prior years issues indicate that none of the 2006 recommendations had been implemented.
          •   Establish and maintain an effective accounting system that ensures compliance with indirect cost requirements determined by DOJ.
          •   Establish controls and procedures to ensure NDAA obtains evidence the suspension and debarment certification was received or
              determined prior to disbursement.
2008      •   Follow up on prior years issues indicate that:
               • None of the 2007 recommendations had been implemented.
               • Two of the 2006 recommendations (procedures and controls over allowable costs and single audit) had been implemented. The
                   recommendation to ensure transactions are properly recorded was partially implemented while the recommendation on
                   drawdowns was not implemented.
Source: FYs 2006 and 2008 Management letters as well as, NDAA FYs 2006 through 2008 single audit reports




                                                                         49
     We interviewed Tate & Tryon personnel and reviewed selected Tate
and Tryon work papers to confirm our concerns.

       On June 29, 2009, we issued OJP and OVW a memorandum advising
these agencies of our preliminary audit results for our review of NDAA grant
management practices. We recommended that OJP and OVW consider the
significant number of issues that we identified to date when reviewing future
NDAA grant applications, including those submitted for Recovery Act
funding. The preliminary results summarized in our memorandum included
many of the issues discussed in this report, including (1) prior fraud;
(2) material single audit findings; (3) high turnover in management and
staff; (4) only recently implemented written accounting policies;
(5) deficient accounting practices; (6) unsupported drawdowns; (7) late
indirect cost proposal submissions; (8) unsupported labor costs; (9) missing,
unauthorized, and unsupported accountable property; (10) unsupported
travel expenses; (11) and delinquent and inaccurate financial reports. OJP
responded to our memorandum on August 26, 2009, stating that it had
awarded NDAA two cooperative agreements since our June 2009
memorandum and that it included additional award conditions to ensure that
NDAA implemented the appropriate controls to address the weaknesses we
summarized in our memorandum.




                                     50
	
                                                         APPENDIX II

Detail by Reporting Period of Variances between FSR
Amounts and Accounting System Reported Amounts

                           Award: 2001-GP-CX-K050

                                 Cumulative Reported Outlays
            FSR                                Per Accounting
      Reporting period            Per FSR           System       Variance
                            Bureau of Justice Assistance
 7/1/2001 - 9/30/2001                       0              739          (739)
 10/1/2001 - 12/31/2001                92,575           97,230        (4,655)
 1/1/2002 - 3/31/2002                 306,333          310,988        (4,655)
 4/1/2002 - 6/30/2002                 403,150          409,839        (6,689)
 7/1/2002 - 9/30/2002                 506,144          510,848        (4,704)
 10/01/2002 - 12/31/2002              509,992          514,742        (4,750)
 1/1/2003 - 3/31/2003                 509,992          507,465          2,527
 4/1/2003 - 6/30/2003                 816,076          820,711        (4,635)
 7/1/2003 - 9/30/2003                 956,472          956,472              -
 10/1/2003 - 12/31/2003             1,195,370        1,195,370              -
 1/1/2004 - 3/31/2004               1,310,024        1,316,118        (6,094)
 4/1/2004 - 6/30/2004               1,462,741        1,466,410        (3,669)
 7/1/2004 - 9/30/2004               1,543,864        1,544,072          (208)
 10/1/2004 - 12/31/2004             1,759,576        1,759,597           (21)
 1/1/2005 - 3/31/2005               1,936,445        1,936,491           (46)
 4/1/2005 - 6/30/2005               2,167,286        2,168,723        (1,437)
 7/1/2005 - 9/30/2005               2,256,365        2,261,409        (5,044)
 10/1/2005 - 12/31/2005             2,365,712        2,365,979          (267)
 1/1/2006 - 3/31/2006               2,502,897        2,499,306          3,591
 4/1/2006 - 6/30/2006               2,743,843        2,757,493       (13,650)
 7/1/2006 - 9/30/2006               2,881,799        2,948,369       (66,570)
 10/1/2006 - 12/31/2006             3,038,262        3,049,047       (10,785)
 1/1/2007 - 3/31/2007               3,097,470        3,100,541        (3,071)
 4/1/2007 - 6/30/2007               3,177,312        3,183,915        (6,603)
 7/1/2007 - 9/30/2007               3,268,312        3,325,470       (57,158)
 10/1/2007 - 12/31/2007             3,350,276        3,355,336        (5,060)
 1/1/2008 - 3/31/2008               3,368,558        3,373,618        (5,060)
 4/1/2008 - 6/30/2008               3,422,716        3,395,531         27,185
 Source: NDAA FSRs and NDAA accounting records




                                        51
	
                         Award: 2006-DD-BX-K272

                              Cumulative Reported Outlays
           FSR                               Per Accounting
     Reporting period           Per FSR          System        Variance
                          Bureau of Justice Assistance
9/1/2006 - 9/30/2006                    45                 0             45
10/1/2006 - 12/31/2006               9,757            11,814        (2,057)
1/1/2007 - 3/31/2007                35,498            34,797            701
4/1/2007 - 6/30/2007                70,690            69,666          1,024
7/1/2007 - 9/30/2007               106,790           113,231        (6,441)
10/1/2007 - 12/31/2007             172,744           171,720          1,024
1/1/2008 - 3/31/2008               209,909           208,885          1,024
4/1/2008 - 6/30/2008               272,568           271,544          1,024
Source: NDAA FSRs and NDAA accounting records


                         Award: 2006-CP-BX-K002

                              Cumulative Reported Outlays
           FSR                               Per Accounting
     Reporting period          Per FSR           System        Variance
                          Bureau of Justice Assistance
9/1/2006 - 9/30/2006                     0                0               -
10/1/2006 - 12/31/2006              34,786              267          34,519
1/1/2007 - 3/31/2007                 2,071            2,071               -
4/1/2007 - 6/30/2007                59,704           53,106           6,598
7/1/2007 - 9/30/2007               118,982          222,683       (103,701)
10/1/2007 - 12/31/2007             247,905          247,905               -
1/1/2008 - 3/31/2008               251,746          251,746               -
4/1/2008 - 6/30/2008               294,848          294,848               -
Source: NDAA FSRs and NDAA accounting records


                         Award: 2007-DD-BX-K042

                              Cumulative Reported Outlays
           FSR                               Per Accounting
     Reporting period          Per FSR           System        Variance
                          Bureau of Justice Assistance
         3/1/2007 - 3/31/2007            0                 0              -
         4/1/2007 - 6/30/2007      638,340           638,340              -
         7/1/2007 - 9/30/2007      638,340           638,340              -
       10/1/2007 - 12/31/2007      981,976           998,374       (16,398)
         1/1/2008 - 3/31/2008    1,181,283         1,319,945      (138,662)
         4/1/2008 - 6/30/2008    1,487,821         1,487,821              -
Source: NDAA FSRs and NDAA accounting records




                                      52
	
                         Award: 2007-DD-BX-K173

                              Cumulative Reported Outlays
          FSR                                Per Accounting
    Reporting period           Per FSR           System           Variance
                          Bureau of Justice Assistance
10/1/2007 - 12/31/2007               8,093             9,992           (1,899)
1/1/2008 - 3/31/2008                58,194            62,993           (4,799)
4/1/2008 - 6/30/2008               163,923           176,841          (12,918)
Source: NDAA FSRs and NDAA accounting records


                         Award: 2007-GP-CX-K004

                              Cumulative Reported Outlays
          FSR                                Per Accounting
    Reporting period           Per FSR           System           Variance
                          Bureau of Justice Assistance
10/1/2007 - 12/31/2007                   0                 0                 -
1/1/2008 - 3/31/2008                 6,874             8,301           (1,427)
4/1/2008 - 6/30/2008                31,467            38,227           (6,760)
Source: NDAA FSRs and NDAA accounting records


                         Award: 2007-CP-BX-K002

                              Cumulative Reported Outlays
          FSR                                Per Accounting
    Reporting period           Per FSR           System           Variance
                          Bureau of Justice Assistance
10/1/2007 - 12/31/2007                   0                    0              -
1/1/2008 - 3/31/2008                     0                    0              -
4/1/2008 - 6/30/2008                     0                    0              -
Source: NDAA FSRs and NDAA accounting records




                                      53
	
                         Award: 2005-MU-FX-0012

                          Cumulative Reported Outlays
         FSR                             Per Accounting
   Reporting period         Per FSR          System          Variance
         Office of Juvenile Justice and Delinquency Prevention
10/1/2005 - 12/31/2005           44,108           44,108               -
1/1/2006 - 3/31/2006            106,812          105,599           1,213
4/1/2006 - 6/30/2006            252,177          247,342           4,835
7/1/2006 - 9/30/2006            360,259          360,856           (597)
10/1/2006 - 12/31/2006          407,713          428,648        (20,935)
1/1/2007 - 3/31/2007            505,647          511,133         (5,486)
4/1/2007 - 6/30/2007            587,864          596,224         (8,360)
7/1/2007 - 9/30/2007            665,506          701,118        (35,612)
10/1/2007 - 12/31/2007          735,255          739,767         (4,512)
1/1/2008 - 3/31/2008            753,998          759,686         (5,688)
4/1/2008 - 6/30/2008            774,785          780,473         (5,688)
Source: NDAA FSRs and NDAA accounting records
                         Award: 2007-CI-FX-K005

                          Cumulative Reported Outlays
         FSR                             Per Accounting
   Reporting period         Per FSR          System          Variance
         Office of Juvenile Justice and Delinquency Prevention
8/1/2007 - 9/30/2007                  0           44,127        (44,127)
10/1/2007 - 12/31/2007          296,330          375,214        (78,884)
1/1/2008 - 3/31/2008            388,709          560,042       (171,333)
4/1/2008 - 6/30/2008            502,995          806,635       (303,640)
Source: NDAA FSRs and NDAA accounting records


                         Award: 2007-JL-FX-K005

                          Cumulative Reported Outlays
         FSR                             Per Accounting
   Reporting period         Per FSR          System          Variance
         Office of Juvenile Justice and Delinquency Prevention
10/1/2007 - 12/31/2007                0                0               -
1/1/2008 - 3/31/2008              7,656            9,484         (1,828)
4/1/2008 - 6/30/2008             20,507           26,838         (6,331)
Source: NDAA FSRs and NDAA accounting records




                                   54
	
                         Award: 2004-DN-BX-K017

                              Cumulative Reported Outlays
         FSR                                 Per Accounting
   Reporting period            Per FSR           System        Variance
                          National Institute of Justice
7/1/2004 - 9/30/2004                     0                 0              -
10/1/2004 - 12/31/2004              56,751            56,751              -
1/1/2005 - 3/31/2005                86,765            86,765              -
4/1/2005 - 6/30/2005               151,951           151,951              -
7/1/2005 - 9/30/2005               212,569           212,587           (18)
10/1/2005 - 12/31/2005             287,973           287,973              -
1/1/2006 - 3/31/2006               405,609           401,844          3,765
4/1/2006 - 6/30/2006               541,849           542,480          (631)
7/1/2006 - 9/30/2006               604,506           613,742        (9,236)
10/1/2006 - 12/31/2006             642,539           650,260        (7,721)
1/1/2007 - 3/31/2007               676,391           680,319        (3,928)
4/1/2007 - 6/30/2007               795,052           802,065        (7,013)
7/1/2007 - 9/30/2007               870,150           885,111       (14,961)
10/1/2007 - 12/31/2007             933,714           939,309        (5,595)
1/1/2008 - 3/31/2008             1,038,200         1,043,690        (5,490)
4/1/2008 - 6/30/2008             1,199,470         1,204,960        (5,490)
Source: NDAA FSRs and NDAA accounting records


                         Award: 2007-DN-BX-0011

                             Cumulative Reported Outlays
         FSR                                 Per Accounting
   Reporting period            Per FSR           System        Variance
                          National Institute of Justice
10/1/2007 - 12/31/2007                 990             1,230          (240)
1/1/2008 - 3/31/2008                 9,920            11,643        (1,723)
4/1/2008 - 6/30/2008                26,720            30,428        (3,708)
Source: NDAA FSRs and NDAA accounting records


                         Award: 2007-VF-GX-K012

                              Cumulative Reported Outlays
         FSR                                 Per Accounting
   Reporting period             Per FSR           System       Variance
                           Office for Victims of Crime
8/1/2007 - 9/30/2007                     0                 0             -
10/1/2007 - 12/31/2007                   0                 0             -
1/1/2008 - 3/31/2008                     0                 0             -
4/1/2008 - 6/30/2008                 3,271             3,853         (582)
Source: NDAA FSRs and NDAA accounting records




                                      55
	
                     Award: 2004-WT-AX-K047

                           Cumulative Reported Outlays
        FSR                               Per Accounting
  Reporting period           Per FSR           System        Variance
                         Office for Victims of Crime
1/1/2005 - 3/31/2005            161,535            160,566            969
4/1/2005 - 6/30/2005            344,363            344,898          (535)
7/1/2005 - 9/30/2005            493,960            619,169      (125,209)
10/1/2005 - 12/31/2005          716,127            876,040      (159,913)
1/1/2006 - 3/31/2006            927,516          1,081,754      (154,238)
4/1/2006 - 6/30/2006          1,275,283          1,502,024      (226,741)
7/1/2006 - 9/30/2006          1,669,608          1,911,716      (242,108)
10/1/2006 - 12/31/2006        1,900,498          2,117,067      (216,569)
1/1/2007 - 3/31/2007          2,018,113          2,235,336      (217,223)
4/1/2007 - 6/30/2007          2,123,124          2,356,466      (233,342)
7/1/2007 - 9/30/2007          2,233,061          2,529,707      (296,646)
10/1/2007 - 12/31/2007        2,375,489          2,632,255      (256,766)
1/1/2008 - 3/31/2008          2,470,849          2,748,920      (278,071)
4/1/2008 - 6/30/2008          2,538,508          2,866,729      (328,221)
Source: NDAA FSRs and NDAA accounting records


                     Award: 2005-EW-AX-K002

                          Cumulative Reported Outlays
        FSR                               Per Accounting
  Reporting period          Per FSR           System         Variance
                         Office for Victims of Crime
6/1/2005 - 6/30/2005                  0            2,811          (2,811)
7/1/2005 - 9/30/2005             11,895           11,894                1
10/1/2005 - 12/31/2005           39,539           39,045              494
1/1/2006 - 3/31/2006             77,270           78,026            (756)
4/1/2006 - 6/30/2006            112,986          110,846            2,140
7/1/2006 - 9/30/2006            134,391          131,457            2,934
10/1/2006 - 12/31/2006          167,781          169,418          (1,637)
1/1/2007 - 3/31/2007            196,734          210,458         (13,724)
4/1/2007 - 6/30/2007            248,161          258,274         (10,113)
7/1/2007 - 9/30/2007            288,536          289,275            (739)
10/1/2007 - 12/31/2007          404,935          414,658          (9,723)
1/1/2008 - 3/31/2008            454,719          476,157         (21,438)
4/1/2008 - 6/30/2008            490,390          512,100         (21,710)
Source: NDAA FSRs and NDAA accounting records




                                    56
	
                       Award: 2007-TA-AX-K027

                        Cumulative Reported Outlays
       FSR                               Per Accounting
 Reporting period         Per FSR            System        Variance
                        Office for Victims of Crime
5/1/2007 - 6/30/2007                  0                0             -
7/1/2007 - 9/30/2007            10,748                 0        10,748
10/1/2007 -                    228,738           223,813         4,925
12/31/2007
1/1/2008 - 3/31/2008        230,676           225,512            5,164
4/1/2008 - 6/30/2008        237,576           232,412            5,164
Source: NDAA FSRs and NDAA accounting records




                                    57
	
                                                           APPENDIX III

  Detail by Award of Individual Variances between
Drawdown Request and General Ledger Expenditures

            Drawdown Schedule for Grant 2007-DD-BX-K173

  Date of                            Amount per
 Drawdown       Amount per OJP   Accounting Records                Difference
                     Bureau of Justice Assistance
4/1/2008                $       52,500           $        53,047       $      (547)
4/9/2008                         5,600                         -              5,600
5/1/2008                         1,200                     6,869            (5,669)
5/16/2008                        7,100                     3,758              3,342
6/5/2008                        19,000                    17,910              1,090
6/25/2008                        9,000                    63,252           (54,252)
   TOTALS                $ 94,400                    $ 144,836         $(50,436)
Source: OJP Drawdown information and NDAA General Ledger information

            Drawdown Schedule for Grant 2007-GP-CX-K004

  Date of                            Amount per
 Drawdown       Amount per OJP   Accounting Records                Difference
                     Bureau of Justice Assistance
3/10/2008                   $    3,700                $    3,421           $       279
4/1/2008                           600                     1,601               (1,001)
4/9/2008                         2,100                         -                 2,001
5/16/2008                        6,400                     7,280                 (880)
6/5/2008                         6,400                     5,349                 1,051
6/25/2008                        9,000                     2,179                 6,821
   TOTALS                $ 28,200                     $ 19,830             $ 8,370
Source: OJP Drawdown information and NDAA General Ledger information




                                         58
	
            Drawdown Schedule for Grant 2007-CI-FX-K005

  Date of                            Amount per
 Drawdown     Amount per OJP      Accounting Records      Difference
        Office of Juvenile Justice and Delinquency Prevention
1/16/2008                $   206,800              $        149,314     $         57,486
1/18/2008                     84,000                        10,187               73,813
2/5/2008                      29,000                        48,027             (19,027)
3/10/2008                     64,200                        47,209               16,991
4/1/2008                       7,400                        25,126             (17,726)
4/9/2008                      38,700                             -               38,700
6/5/2008                      45,000                        36,610                8,390
6/25/2008                     11,000                         9,319                1,681
        TOTALS          $ 486,100                     $ 325,792        $ 204,434*
Source: OJP Drawdown information and NDAA General Ledger information
	
Note: 44,127 excess in drawdown expenses was the result of an unsupported adjustment.
	

            Drawdown Schedule for Grant 2007-JL-FX-K005

   Date of        Amount per          Amount per
  Drawdown            OJP          Accounting Records      Difference
         Office of Juvenile Justice and Delinquency Prevention
3/10/2008                $     2,200                   $     1,520         $           680
4/9/2008                       3,400                         2,336                   1,064
5/16/2008                      3,500                         4,555                 (1,055)
6/5/2008                       2,700                         1,611                   1,089
6/25/2008                      1,500                         2,966                 (1,466)
    TOTALS                $ 13,300                     $ 12,988                $     312
Source: OJP Drawdown information and NDAA General Ledger information




                                         59
	
            Drawdown Schedule for Grant 2007-DN-BX-0011

   Date of          Amount per         Amount per
  Drawdown             OJP        Accounting Records               Difference
                       National Institute of Justice
1/16/2008               $       630                  $     (187)            $       817
2/5/2008                      1,400                        1,374                     26
3/10/2008                     2,000                        2,186                  (186)
4/1/2008                        700                        2,248                (1,548)
4/9/2008                      2,900                            -                  2,900
5/1/2008                      3,800                        5,330                (1,530)
5/16/2008                     2,100                        1,915                    185
6/5/2008                      9,500                        8,053                  1,447
6/25/2008                     1,300                          828                    472
   TOTALS                $ 24,330                    $ 21,747                  $ 2,583
Source: OJP Drawdown information and NDAA General Ledger information

            Drawdown Schedule for Grant 2007-VF-GX-K012

   Date of          Amount per           Amount per
  Drawdown             OJP          Accounting Records             Difference
                        Office for Victims of Crimes
5/16/2008               $       300              $         1,381       $        (1,081)
6/5/2008                        300                        1,052                  (752)
6/25/2008                     2,500                           97                  2,403
   TOTALS              $     3,100              $         2,530    $              570
Source: OJP Drawdown information and NDAA General Ledger information

            Drawdown Schedule for Grant 2005-EW-AX-K002

   Date of          Amount per          Amount per
  Drawdown             OJP          Accounting Records             Difference
                     Office on Violence Against Women
1/17/2006               $    39,539                  $    39,045           $        494
4/5/2006                     37,731                       38,981                (1,250)
7/14/2006                    35,715                       32,820                  2,895
10/3/2006                    21,405                       20,610                    795
1/10/2007                    33,390                       32,728                    662
4/2/2007                     28,953                       34,527                (5,574)
10/2/2007                    51,426                       40,631                 10,795
11/6/2007                    40,375                       50,347                (9,972)
2/8/2008                    116,400                      115,311                  1,089
5/5/2008                     49,784                       55,756                (5,972)
   TOTALS              $ 454,718                    $ 460,756              $ (6,038)
Source: OJP Drawdown information and NDAA General Ledger information



                                       60
             Drawdown Schedule for Grant 2007-TA-AX-K027

   Date of          Amount per          Amount per
  Drawdown             OJP          Accounting Records             Difference
                     Office on Violence Against Women
12/10/2007             $    10,748               $    218,051          $ (207,303)
2/25/2008                  217,991                      5,763              212,228
5/5/2008                     1,938                      1,699                  239
   TOTALS              $ 230,677                  $ 225,513            $   5,164
Source: OJP Drawdown information and NDAA General Ledger information




                                       61
	
                                                    APPENDIX IV 


         Unallowable Salary Charges by Award
                        Award: 2001-GP-CX-KOSO

 Pay Period Ending                Last Name     Unallowable Salary
                     Bureau of
                                                                112
                                                                113
                                                                112
                                                                 73
           TotaJ                                                 10
Source: NOAA Financial Records

                        Award: 2006-CP-BX-K002

  Pay Periods Ending                Last Name    Unallowable Salary

                                                                 600
                                                                 164
                                                                     48
                                                                 136
                                                               1 038
                                                                  37
           Total                                                023
Source : NOAA Financial Records

                        Award: 2007-DD-BX-K042

   Pay Period Ending                Last Name    Unallowable Salary
~------------~~~~~~
                     Bureau of Justice Assistance
                                       -~~--------~------~
                                                                891
                                                                594
                                                                     50
                                                               1 573
                                                               1 644
                                                                594

                                                                     1
Source : NOAA Financial Records




                                       62
                       Award: 2007-GP-CX-K004




           Total
Source: NDAA Financial Records

                       Award: 200S-MU-FX-0012




Source: NDAA Financial Records

                       Award: 2007-CI-FX-KOOS



        007
        08
       008
          Total
Source: NDAA Financial Records

                       Award: 2004-DN-BX-K017

Pay Period Ending                Last Name   Unallowable Salary

                                                             135
                                                             292
                                                           2 731
                                                             56
                                                             14
Source: NDAA Financial Records




                                     63 

                      Award: 2004-WT-AX-K047




Source: NDAA Financial Records




                                 64 

                                                                                           APPENDIX V

  AUDITEE RESPONSE TO THE DRAFT REPORT

                                                                National District Attorneys Association
                                                                Nation al Distri ct Attorn eys As sociation
                                                                44 Can al Center Pla'Za, Suite 110, Alexandria, Virginia 22314
                                                                   Canal         Pia:za,
                                                                703.549.9222 I 703.836.3195 F ax
                                                                               703 . 836.3195
                                                                www. ndaa . org
                                                                www . ndaa.org




       Apr il 7, 2010
       April

       Mr. Troy M. Meye r
                        eyer
       Regio nal A udit M anager
         egional
       Washin gton Regional Aud it Offi ce
             hing                     Offi
       U .S. Department of Ju stice
                              jus
       Office of th e In spector General
       Offi ce o f    Insp ecto r
       1300 North 1i h Stree t, Su ite 3400
                             eet, Sui 3400
       A rlington, V A 22209
         rl ington,

       Dear Mr. Meye r:
                Meyer:

               Encl
               En cl os ed is the Nation al D istrict A ttorneys Associatio n 's com ment s and respo nse
                                    Nationa      trict            Associati
       to the draft aud i t r epo rt on Dep artm ent of Ju stice award s to the Na tiional Di stric t
                    audi eport           epa rtment o f Justice award           Nat           stri
       Att orneys Assoc iation.
                   Associ

                W e have m et wi th a udit an d progra m rep resentati ves o ft he O ffice of Ju stice
                                 wit          and progra                             ffi ce Jus
       Pro gram s and Offic e o n V iole nce Aga inst Women an d bega n the pro cess o f prepa ring for
       Progr ams         Office       iolen Against               and            process preparing
       creatin g co rre ct ive action p la ns fo r the findin gs.
       creatin      rrecti action lan                   mdin

               We look forward to ge tti n g th e final aud it report and b egi nning th e pro cess of
                         forw ard gett i                 audi                    eginnin g the process
       creating co rrective a ction pla ns an d re med ies for t h e findin gs .
       creating rrect                      and

                If you have a n y qu est i.ons, p lease con tac t Thom as Hanison, NOAA's ne w CFO at
                                      esti,o n          cont      Thomas Ham son,         new
       (7 03) 51 6·1 66 1 or th a nison@ndaa.org .
               1 ·1661            nison@ndaa.org.

       S incerely,




       Executive Directo r
                    Direc
       Na tion a l Di strict Atto rn eys Associa tio n
          tiona

       En closure

       cc:
       cc:      Linda Taylo r
                       T aylor
                Offi ce of Jus ti ce Program s
                Office o f ust       Programs

                Bill Ru ssell
                     Russe
                Office on Viol ence Aga inst W om en
                Office              Agains     omen



To Be the Voice rifAmerica's Prosecutors and to Support Their Efforts to Protect the Rights and Sqfety
                cif                                                                             Safety   if the People


                                                         65
	
                     Nationa l District Attomeys Association Response to
                                        Attorneys Associ ation
                              Un ited States Department o f J us tice
                              Uni            Department
                                   Office of Inspec tor Genera l
                                               spect
                                       Draft Audit Rep ort
                                                    Report
                                                 of
                             Departmcnt
                             Department of Justice Awards to the
                            National Di strict Attorneys Assoc iation
                                                         Associ

Introduction

The Draft Audiit Report ("Re port") accurately states the National Di strict Attorneys
             Aud t           ("Report")                  tes
Association 's ("NOAA") missio n and h isto ry i n th e Int rod uctio n sec ti on ortthe Report .
                's                            istory the Introdu           section of he Report.
NDAA s trives to ac hiev e it s mi ssio n through ed ucat in g an d sUPP0l1 ing prosecutors in
           trives       hieve        ssion through       catin and upportin g
th eir profess ional deve lo pm ent to facilitate an d imp rove the ad mi n istration of justice an d
        profess onal devel pment                       improve          min              justice and
reli
rel i es heav il y upon federa l awa rds to fund th ese educa ti onal activities.
                        fede ral awa.rds                educati

In rev iew ing th e his tory of NOAA 's past merge rs with th e National College of Di st ric t
    revi ewing                           's    mergers         the National Coll ege           stri c
Atto rn eys and th e A me rican Prosecu to rs Research Ins tit ute, it is cl ea r that the
                  the merica n Prosec utors                  titu
management that su rvived th e m ergers had an und evel oped knowledge of creatin g the
                                                      ndeve                                 ing
in temal control systems, polici es and procedures to a ll ow NOAA to serve as a good
   terna                       policies                     llow
s teward of government awards. NOAA ' s board 'has recognized thi s and has asse mbled a
                                                       has               this            assembled
team wi th expertise in governmen t grant manage ment and comp li ance and h as begun the
                            government         management          compliance
process of c reating th e intema l controls, polici es and procedures th at will all ow NOAA to
                         the internal
manage its grant fina n ces wit h the sa me degre e of professionalism and expertise as its
ma nage              fi nan               same           professionalism           expert'ise its
program staff uses to design a nd del i ve r th e excell ent trai ning and technical assi s tance it
                                        deli       excel     tra                         assis
ha s supp li ed to state and loca l prosecutor s for years.
has uppli

NOAA is respo nding below to the Recommendatio ns in th e Draft Audit Report. The
           responding                Recommendations              Draft
           address the Recomme ndations                                     3~
res ponses addr ess th e Reco mm end ations in the order li sted on pages 43 - 45, and th e
                                                                                       the
res ponse numbers correspond to the ide ntica ll y numb ered R ecommendati ons. NOAA
                                                   numbered ecommendati
wi ll work w ith OJ P and OVW t o develop accep tab lc corrective act ion pl ans:
                                             acccpt i e              action

Respo nses to Re commendations to OJ P
              Recommendat ions     JP

1.      NDAA ag rees to d e velop and impl ement w ritten policies a nd procedures to
                                       mplement             olicies
        ensure awa rd expenses a re accura tely reported on its FSRs.
               award                accurat

2.      On pa ge ii as well as in several o th er places in the Repo rt,, OIG indica ted that
             page                    several                        eport        indicat
        "NOAA ha d not backed up the electro nic ge neral ledge r prior to th e se rver crash"
                                                ectron            led ger         the       crash"
        of the compu ter se rver th at ma intained the NDAA general ledg er used prior to
                computer server that maintained           NOAA                dge
        September 30, 2006. NOAA wou ld like to clari fy its reIXlrt to the 0 1 The
        September         2006.              would         clarify     report        O I0. The
                                                                                        G.
        server used to maiint a in th e ge nera l ledger used prior to Sep tembe r 30, 2006 did
                                             eraii e                         tember
        crash in Jul y 2008. N OAA staff had perfonned backup procedu res for th at
                                            aff      performed
        computer server and ha s back up da ta from it. NOAA a tt empted and was u nab l e
        computer                      backup dat fro m                  uempted
        to rel oad and react i va te th e acco unting software o n another server, and as a res u lt ,
            eload                                                    not her                 esu
        it co uld not ve rify w het her th e backup data was usefu l or corrupted. While
           could      verify hether          backup                       conupted.


                             NOAA Response to O IG Draft Report
                                             Page I of6


                                             66
	
     NOAA disagrees wiit h need fo r the r ecommendation , it agrees 10 dcvelop
                         w t                ecommendation,                [0 dcvel op

     accounting sy s t em backup procedure.'i. NOAA cu rrent ly operates an i nfonnat ion
                  sys     back up rocedures.              c urre ntly                       oll
     infrastructure which prov ides mul ti ple layers of redundancy by backing up
                     wh ich provi    mult
     accounti ng
     accou nting system data locally and moves backed up data offsi te dai ly. It is
                                            mov es                    offsit
     movi ng
     mo ving its accounti n g system [0 an ofTsite., ho sted en virorunent with m u lt iple
                  accountin           to     ffsite. hosted cnvirorunent             ltiple
     layers ofredu ndancy and o ff
     la yers ofr edundanc y and off s ite backup capabilities.

3.   NOAA agrees to de vello p and implement wr itten po licies and procedures to
                          deve                      writt en policies
     ensu re cons iste nt d rawdowns to mee t thc minimum ncede<! to p a y for aClllal and
     ensurc consistent                    meet the minim um eede<l                act ual
     an ticipat ed costs within 10 days of the draw . Wc would like to n o te tha t the aud it
          icip ated                       of      draw. We                                a udit
     s h ows t hat in the majority of i nstance s audit findings showed that NOAA was
                                        nstances        findings
     drawing less th an the amo un ts t ha t were reflected on t he reporting. There we re
                              amoun hat                                                wer
     very few insta nces o f e x cess cash, most of which would be justifi able wit h
             e w instanc es                        of                 justifiable w ith
     expense accrua ls that occ urred p rior to the drawdown bu t were no t pos ted untill
                 accrual       occurred                           but      not post unti
     afterwards.
     afterwards . NOAA has corrected this u nacceptable accounting pract ice .
                                                               accounti ng practice.

4.   NDAA concu
     NO AA co ncu rs with the audito r that miscellaneous expenses s hould not be
                                   auditor
     charged to gran ts especially i fthe r e is not a category in the grant budget. These
                   grant                fther
     expend itu
     expen d it u res m ay have b een c h arged there mi s ta k enly and m a y not be reflective
                                                        mis tak                        e flective
             uue category o fth e ex pense.
     of the true ca tegory ofthe expensc_ NOAA will remedy this b y provid ing providing
     suppo rting
     supporting documentation showing corrected cod ing for th e ques tio ned
                                                          coding          questi o
     m isce lla neous c harges. For the unapproved indi rect expe nd itures , N O AA w illl
         scell a                                         indir     ex pend itures,            il
     r ec alculate it s indirect cost rate unde r a pproved me th ods and standards and appl y
       ecal culate its ind irect           under pproved met                standards
     the corrected rat e to al l relevan t a wards .
                       rat        relevant wards.

5.   NOAA has imp lement ed a t imekeeping approval process and agree s to modify it
                     m plemen t        mckeeping                               agrees mod ify
        tha          upervisor              oject          will
     so th a t the s up ervisor for each p rojec t charged wi ll s ign off o n work done by
     employee s
     employees by ind ividual project. T his will req u ire a n opt i on for electronic
                        indivi d               hi s                  opti     for
     approv
     appro v al in c ases where wo rk is b ei n g don e on projects w h ich apply to multip le
                      as es                                projects                   mu lti p
     work sites.
              ites.

6.   N O AA agrees tha t our rcco rdkcep ing was not consis tentl y recon ciled to the grants
                      that      reco dk cepin g          consistently reconci led
     and genera l ledger as it should be. Clea rl y thc re is s upport fo r the di fference
           general               shou ld      Clearly ther                      difference
     found b y the aud itors that N D AA was unable t o prod uce a t tha t time . N O AA will
     fo und          audi            O                     produc e that time.
     rev
     re v iew the ti meshee ts, labor d istribution spreadsh eets and generailedger e nt ries to
                  timesh eets,                      spreadsh eets      general ledger ntries
     provid
     provi d e the supporti n g docu m entatio n 1o remedy t hese qu esti oned costs .
                   supportin documen tation t0                hc se ques t      costs.

7.   N D AA ha s experie nced s i gnifican t turnove r in s laff, whic h may have res ulted in
               has experien             gnificant turnover       taff, wh ich              esul ted
     s ubstitu t ion of staff id en t ified in gran t budgets with st a ff wit h d ifferent titles tha n
       ubsti tut                 ent           gr-ant                 staff with iffercntlitles than
     used in the budgets. N O AA agrees th at payro ll cos ts 1o the audited gran ts
               thc                                 that payroll cost t0                 grant
     includ ed pos itions no t included in t he grant b u dgets. NOAA plans to review the
     incl uded posit ions                             gnmt dget:;. NDAA plans
     grant b udgets and labor distribu t ion spreadshee t s for supporting d ocumen tation 1o
                                   d istributi on spreadsheet                         ocum ent         t0
     con finn
     confinn t h at th e staff w orking on the grant s ass i st ed in preparing the deiiverables
                     the sta ff ork i                granls assi sted                    deliverables
     a nd seek r etroactive program office a p pro val for t he subs titutions..
          seck                                        proval           substitutions




                           l\.'DAA Response to DIG Draft Report
                           N DAA
                                        Page 2 of6
                                               of G


                                                 67
	
8.     N OA A agrees with the findin gs that we did not have a poli cy in pl ace o r a method
                                     findi n                            policy
       to a ll ocate H oli da y leave charges to the s p ec ified gran ts. We w ill develop a
       consistent method of a llocati ng H o lid ay time on a pro-ra ta b a sis a(:ross oosts
                                   llocating    ida y              pro-r a               costs
       centers charged before and after the holiday. We wi!1 apply this method to these
                                                 holiday.         will
       holiday charges to remedy these q ues t io ned costs.
                                              uest ioned

9.     N O AA agrees wi th the findings that NOAA did n o t have a poli(:y in place o r a
              agrees                                                    policy
       method to allocate Perso nal le ave ch arges to the speci fi ed grants. We will
                           Personal leave
       develop a cons istent method of alloc a ting Personalleavc time on a pro-rata basis
                 consistent met hod     alloca      Personal leave ti me o n            basi s
       aaoss costs cen ters charged before and after the personal day. \V e will apply this
       across       centers                                                   We
       method to t hese Personal leave ch arges to remedy these qu estioned costs.
                                                                     questio ned costs.

10.              agrees
       N O AA agrces there are inconsistencies in the classification of expenses c harged
       to the fringe pools as we ll as math errors in the fringe rate calculation. NOAA
               fringe           well
       plans to procure the services of an outsi de consultant w i th experience in c reating
       fede ral fringe bencfit rates and correctly recalculate the fringe benefit ra tes in
       federal          benefit
       q u estlOn to remedy t hese quest ioned costs. NOAA ha s h ired a new CFO and
           est10n                   questio ned                has
       grants manager w ith OJP experience to hel p us comply with gra n t requiremen t s to
                                                  help
       calculate proper and correct fringe rates for future years.
                                                      fu ture

I I.   NOAA ha s prep ared a pol icy and procedure for accountab le pro pe rt y and agrees
                                policy                       accountabl
       to review th is po licy with O J P to ensure it mee ts th e r egulatory complia nce
                       pol            JP               meet the                compliance
       gui delines for adequate t rac k ing and safeguarding of it ems pu rchased w ith OOJ
       guide lines                rack                                    purchased
       grant funds.

12.    NOAA ag rees th at il allocated comp uter purchases to gra nt bu dgets tha t d id no t
       N OAA grees thai t                 computer pUT(:hase       gran budgt:ts that    nO
       contain approved computer purchases before receiving prio r approv a l from O JP.
                                                                     p rio approv
       N OAA a grees with the recommen datio n to remedy the $8381.00 in compu ter
          DAA                     recommendatio                      $838 1.00 computer
       cos ts for grantt 200 1-GP-CX-K050. NOAA will s ub s tan ti a te the cos ts by
                  gran 2oo
       requesting an i nvo ice confi nn ing the serial numbers from NOAA's co mputer
                         nvoice confirm                                  NDAA's computer
       v endor Dell Com p ut ers a nd w i ll seek retroactive pro gram office approval for the
                            uters                             program
       com puter purchases .

13.    N OA A a grees that it allocated compu ter p u rchases to grant bu dgets t hat di d 110t
                                         compute r                     budgets             no
       co n tain approved compu ter pur(:hases b efore receiving prior approval from OJP .
                             computer purchases         receivi ng                        OJP.
       NOAA a grees w ith the recommendation to remedy t he S 1522.00 in computer
                  gree.-:;                                         $
       cos ts for grant 2007-CI- FX-K005 and w ill s eek retroactive program o ffi ce
                           2oo7-CI- X-KOO5
       approval for th is comp uter's purchase.
                                  uter's

14.    NOAA agrees that it did not have a travel policy in p la ce prio r to July 2008 and
                                                                   prior
       tha t proper travel authorization s, completed vouchers and ad eq ua te
                           authorizations,                     li adeq
       documentation were lac k ing. NOAA believes all travel p a id by a ward ed grants
                              lack     NOA A                                ward
       has suppo rt ed comple tio n of grant deliverables. N OA A agrees wi th t h e
                                ion          deliverablcs. DAA
       recommendation to remedy S 16] ,622 in unsupported lravcltra n sac tioll s and will
                                     $163,622                  t mvc\ tran     ions
       produce a lt en mtive supporting documenta tion to verify the travel cost s in
                    emative              documemation
       quest ion. (The recommend ation 1o re medy $163,662 in travel w ithout written
                   (TIle recommendati on t0


                           NDAA
                           N DAA Response to OIG Oraft Report
                                                   Draft
                                      Page J o f 6
                                             of


                                               68
	
       auth o ri zatio n s, vouchers or adequate su pporti ng docume ntati o n inelud es $ 100,636
       autho                            adequatc supporti     documenta tio ncludes 00,636
          questjoned            fo r     2oo7-00 -BX-K042,
       of questioned costs for grant 2 oo 7 -D O -B X -K042, which is also th e s ubjec t of
                                                                        al so
       R ecommend ation # 19. N O AA would like to confinn that these questioned costs
         ecommendation                                     co nfi nn           quest ioned
       are not duplicated in Recommendation #1 9 .)#1

15 .   N O AA agrees wi th the recommenda t ion to ensure the imp lementati oll o f a travel
                agrees             recommendat            ellsure                       n
       policy requir ing employ ees 10 sub m it and r eceive ap proval for travel c osts.
                           em ployees to submit                   approval fo r
       NOAA implemen t ed an updated travel policy effe{;tive 10/ 612009 which we
                                                             effe<:tive
       believe largely satisfies this au d it recommendation. The policy reflects unique
                 argel y                                                                   un iquc
       ci rc umstances fo r a wa r ds fundi ng s tudent trave l to the Natio nal Advocacy Center
       cir               for war funding                                National Ad vocacy
       ("NAC" ), and t h e pol icy fo r NAC diffCfS from some of the au ditor's
                            policy             differs                       auditor 's
       r e<:ommendat ions. NOAA will work with OlP to ensure the recently dra fted
         ecommenda t                    wi ll                                            drafted
       travel po li cy ad equa tely serves to doc um ent authorized tra vel with a dequa te
                                                   ument                 travel
       s upport.

16.    NDAA agrees wi th the recommend a ti o n to ens ure that the NOAA evaluates how
                        with       recommenda tion         ensure
       it tracks lodging costs and institutes co ntro ls to e nsure ac cura te c harg ing of
                                       institUics con tr o               accu rate
       lodging at the NAC. NOAA implemented an updated travel policy effective
       lodgi ng th e                      implem ented
       iO/6!2OCl9 w hich we believ e la rge ly satis fi es th is au d it recommenda t ion. The
       iO/6/2 (X)9 h ich        believe largely satisfies                recommendat
       policy reflects uni qu e ci rc umstances for awards fu nding student lodgi ng at the
                            que                                 fund ing           odging
       National Advocacy Center ( " NAC') . N O AA will work: w ith OJP to ensure the
                                          NAC').      D           work
       rec ent ly drafted travel po licy ad eq uately serves t o document authorized lodging
       recent             tra vel policy
       costs with adequate support.
                               support.

17.    NDAA agrees Ihat it did not submit indirect co st rate proposals tim el y after its
                         that di d      subm it              cost
       merger
       me rger with APR ] , it us ed APRl's p rov isiona l rates after Ihe mer ger, and tha t t h e
                            I used APR],s rovi                       a fter t merger,
       ca lculation a nd ap p lication of the i nd irect r ates requires imp rovement. N O AA
       calculation        application            di re<:t                  mprovement.
       p l ans to procu re the services of an o utside cons u ltant wit h experience in cr ea ti n g
       federal
       fed eral indirect cos t rates and correctly recalcu late and apply the corrected
                                                      recalcul
       indirect cost rutes in question to remedy these questioned costs. NOAA has hired
                      rates
       a new CFO an d gra n ts manager wi th OJP experience to help us comply with grant
                     and gran                                                     compl y
       r equirements an d ca lcullate proper and correct indirect cost rat es for fu t ure years.
                            calc u ate                                       rules

18.    N OA A agrees with the recom m end ation to im p lement procedures to accurately
                                                 endation
       calc u late indi rect cos ts a nd t hat cons ider the unique ci rc umstance t h at the N O AA
                   indirect cost                                        cir
       d oes not incur ind irect costs for the u se of the NAC fac ility. NOAA p la n s to
                          indirect                                       acili ty.
       p ro cure t he se rvi ces of a n o u ts ide co n sultant w ith experi ence in creati n g federal
         rocu re      services o f                                    experience
       indirec t cost rates to ass is t u s in cr eati ng compliant indi rec t cos t rate calcu latio n
                       rates                     crea ti                ndirec            calcu
       pro c edu res.
             edur

19 .   NOAA
       NDAA agrees th at the bud geted categories in the request fo r pre- a ward costs did
                                 budgeted                                 for
       no t m a tch the documented support for them. NOAA agrees to remedy the
                                                            NDAA                remed y
       $665,000 o f pre -agreement cost s on gran t 2oo7-00-BX-K042 by pro viding
                                      cost        grant 2oo7-DO-BX-K04 2           provi d ing
       su p porting doc um entat ion to show th e amou nt s are accurate a nd rel evan t to t he
                                                               are                releva n
       gr ant 's obj ectives and request re tro a cti ve program o ffice a pp roval fo r t he costs as
       grant obj                                   tive            ffi ce pproval
       necessary to the deli very sc h edule and justified wit h in the scope of work.
                                    sch


                             NOAA Response to O IG Draft Report
                                       Page40f6
                                       Page 4 of6


                                                    69
	
20.       NOAA agrees with the recommen dat ion 10 develop procedures for charging only
                                      recommenda t    to
          supportab le and allocable charges to current and future 00] grants . NOAA has
          supportable                             currcnt     futurc OOJ grants.
          hired a Grants Manager with ten yea rs of experience in the Cus tomer Service
                                              years                     Customer
          Branch al OlP which will benefit budgetary and policy comp liance for a wa rrls
                    at OJP                                           complian ce rOT wanl s
          and coo perati ve agr-eeme nts from 001 . NOAA has also drafted II policy and
               coopera tive agreementS         OOJ.                          a
          pr oced ure for allocating costs to grants and will work with OJP to review and
           nx:edure        allOCllting        grallls
          revi se it as nccessary.
          revise        ncccssllry.

2 1.      N DAA
          NDAA agrees to develop procedures for estimating program income in fu ture
                                                                             futu re
          N OAA grant budget s ubmissions.
            D         budget

       R esponses to Recommendations to OVW

22.
22.       N O AA agrees wi th the recommendation !O develop and implement procedures for
                                     recommendatio n to                         proced ures ror
                      submission of            repons.                Grant Manager will
          the ti mely submiss ion of progress repons, The NOAA Gran t Managcr win
          maintllin a mastcr cal endar o f cvents and providc rem inders and updates 1o
          maintain           calendar                           reminders            t0
          progr-ammatic stllff fo r the submiss ion of pro gress reporting.
          programmatic staff        Ihe submissi       progr-ess

23.       NOAA concurs wi th the audi tor that miscellaneous expenses should not bc
                             with     auditor                          cxpenses            be
          ch llrgcd 10 granL<; especially if th ere is not a category in the grant hudget. The.<;e
          charged t o rall L<; espccilllly there                                     hudgeL The.o;c
          expenditures may have been charged there m istakenly and may no t be reflective
                                                               ista kenly
          of the true category of the expense. N OAA will remed y by p roviding su pporting
                                         expense.                   remedy      rovi ding
          documentation showing corrected coding for the qu estioned miscellaneous
                                                           ror      questioned
          charges. For the unapproved in d irect expen di tures, NOAA will recalculate its
                           thc              ind        expenditures,
          indirect cost ra te u nder approved methods and standards and apply the corrected
           ndirec t      rat
          rate to all relevant awarrls .
                                awards.

2 4.      i','DAA has experienced signific ant tumover in staff, which may have resulted in
          NDA A                       significant
          substitu tion of st aff identified in grant budgets with staff with different ti t les than
          substitution staff                 ill
          used in t hc budgets. NDAA agrees t hat pa yroll costs to th e audited grants
                     he budgcts.                         payroll           the
          included positions not included in the granl budgets. NOAA plans 10 r eview the
                                                       grant            NDAA          to
          grant bu dgets and labor distribution spreadsheets for supporting documenta tion
                 budgets
          that the sta ff w orking on t h e gra nts assisted in prepa ration of the deliverables an d
                    staff                   grants              preparation orthe deliverables and
          seek retroactive program office approval for the subst itutions.
                ret roactive           o ffice                    substituti ons.

25.       NOAA agrees wit h the findings that we did no t have a policy in pla ce or a method
          NDAA             with      find ings                                  place
          to alloc ate Hol id ay leave charges to the speci fied grants. We will develop a
             allocate Holi                             pecified              wiil
          consistent met
          cons istent me thod o f allocating holiday time on a pro- rata basi s across costs
                                o                                pro-rata basis        costs
          cen ten ch!lrged
          cc n ters charged before and after the holiday. We will apply this method t o these
                                               hc            Wc                             thcse
          holida y charges to re med y these 'luestioned costs.
          holiday            10 remedy         questioned

26.       NOAA agrees with the finding s Ihat N OAA did not have a po licy in place or a
          NDAA                     findings that D                       polic y
          m ethod 1o allocate P ersona l leave charges to the specified grants. We will
                  t0            ersonal
          develop consisten t
          develop a co nsistent method of allocating Pl'TSonal leave time o n a pro-ra ta b as is
                                                       Personal        timc      ro -rat asis



                              NDAA Response 10 O IG Draft Report
                              N OAA         to
                                        Page 5 of6
                                               of 6


                                                    70
	
       across costs cen ters charged before and after the personal day. We will apply th is
                    centers                                                           this
       method to these Personal leave charges to remedy these questioned costs .
                                                                          costs.

27.    N OAA agrees there are inconsistencies in the class ification of expenses charged
                                                         classifi cation
       to the fringe pools as well as mat h errors in the rringe rate ca lculation . NOAA
                                      math CITOrs th c                   lculation.
       plans to proc ure the services of an outside consultant with experiencc in creating
                 procure     selVices                                  experience ill
       federal fringe benefit rates and co rrectly reca lculate the fringe benefit rates in
                                        correctly recalculate
       quest ion to remedy these quest ioned costs. NOAA has hired a new CFO and
       question remed y           questioned
       Grants Manage r with OlP experience to help us comply with grant requi rements
               Manager                                                           equirements
       calculate proper and correct fringe rates for future ye ars.
                                                              years.

28.    NOAA agrees that it did not have a travell policy ill placc prior to July 2008 and
                       that           bave ravc          in place
       that proper travcl autho rizations, complctoo vouchers and adequate
                   travel author           complcted
       documentation were lacking. NOAA beli eves all travel paid by awarded grants
                                               elieves
       has supported completion of grant deliverables. NOAA agrees with the
       recommendation to remedy $90,209 in unsuppo rted tra vcl transactions and will
                                                unsupportcd travel
                                        documentation
       produce alternative supporting doc umentation to verify the travel costs in
       question.

29.    NOAA agrees that it did no t subm it indirect cost rate proposals timely after its
                                    not submit                  proposals
       merge r with APR I, it used APRl's provisional rates after the merger,, and t hat the
                wilh          ilused                                      erger
       ca lculation and application of the indirect rates requires improvement. NOAA
       calculation
       plans to procure the selVices of an outside consultant with expe rience in creating
                               services                              experience
       federal indirect cost rates and correctly recalculate and apply the corrected
       ind irect cost rates in question to remedy these questioned costs. NDAA has Ilired
       indi                                                                 NOAA        nred
       a new CFO and grants manager with OJP experience to help us comply with grant
       requirements and calcu late p roper and correct indirect cost rates for future years.
                            calculate                                                 years.


ConclusiQn
Conclusion

NOAA strongly believes in its mission and appreciates OIG's, OlP 's and OVW's
                    believes                                         OlP's
willingness to work with NOAA to improve its financial managemen t prac tices so they
                                                                  nagement pmclices
are comp li ant with all applicable statues, regula tions an d financial guides and on a par
aTe compl                                    regulat      and
with the excellent perfonnance our program staff delivers every day in training state and
         e:o::cellent
local prosecutors.
       rosecu t




                           NOAA Response to OIG Draft Report
                           NDAA
                                     Page 60f6
                                     Page6 0f6


                                                  71
	
                                                                                      APPENDIX VI

           OJP RESPONSE TO THE DRAFT REPORT

                                                          u.s . Department of Justite
                                                          u.s. Departm~nt Ju stic~
                                                          Office of Justice Program s
                                                                            Programs

                                                          Office of Audit, Assessment, and Management
                                                                    Audit. Assessment.


                                                          Itmhi"gtOII.         0531
                                                          Itmh illglOll. D.C. 2Q53/

     APR 1 6 Z010
           62010
MEMORANDUM TO:                  Troy Meyer
                                Reg ional Audit Manager
                                Regional
                                Office of the Inspector General
                                              Inspector
                                Washington Regiona l Audit Office
                                               egional

FROM:                           Maureen A~e?er"p
                                Director    Y\JC>\l.~6
                                            YIJO'l.~tf
SUBJECT
SUB JECT::                      Response to the Draft A udit Report, Department ojJustice Awards 10
                                                                                                 to
                                the National District Attorneys Association
                                                      Anorneys Associarion

This memorandum is in respon se to your correspondence da ted March 19,2010, transmitting the
     memorandum                                             dated
subject draft audit report to the Office of Justice Programs (OlP) for the National Di strict
                                                                                    District
Attorneys Association (NOAA). We consider the subject report resolved and request written
                         (NOAA).
accep tance of this action fr om yo ur office.
acceptance                 from your

The report co ntains 29 recommendations and $4,096,528 in questioned costs, of which 2 1
            contains
reco mmendations and $3,097,69 1 in questioned costs are di r ected to OJP. For ease of re view,
                         $3,097,691                                                     review.
the draft audit report recommendations are resta ted in bold and are followed by OlP's res pon se.
          audit                            restated bold                         OJP's       onse.

1.      Require the NDAA to devel op and implement written polici es and procedures that
                tbe         develop       implem ent          policies
        ensure award expenses are accuratel y reported on its FSRs.
                              a re accurately             its

        We ag ree wit h the recommendation. We will coordi nate with NDAA to obtain a copy of
            agree with                               coordinate                 obtain
        implemented procedures e nsuring that all award expenses are accurately reported on
        future Federal Financial Reports (FFRs).

2.      Require the NDAA to d ev elo p ac counting s ystem b ackup procedur es that, at th e
                   tbe               evel o accounting              procedures that,
        very minimum, regularly replicate, store off-site, and otherwi se safeg uard all
                                       replicate, sto re        otherwise sa feguard
        financi a l d ata re lated to DOJ grants .
        fin a ncia        related           grants.

        We agree with the reconunendation. We will coordinate with NDAA to obtain a copy of
                             recorrunendation.              coordinat
        implemented procedures ensuring th at backup procedures for its accounting system   system
        regularly replica te, sto re off-si te, and otherwise safeguard all financial data related th e
                  replicat sto
        U.S. Department of Justice (DOl) grants..
                               Justice (D01) grants




                                                     72
	
3.   Require the NDAA to deve lop aod impl ement drawdown proeedure ~ that ensure
                                 velop and implement             proeeduru thai
     eOlls
     con s is tent drawd own s to me et the minimum need ed to pay for uetual or antieipllt ed
                   drawdowns mee                     eeded pay                   antieipllte
     cost
     cos ts within 10 duys of the draw.
                            nfthe druw.

     We agree with the recommendation.. We will coordinate with NDAA to obtain a co py of
                        recommendati o             coordi nat                         cop
     implemented
     implemented procedures ensuring that Federal cas h-on-h and in th e minimum amount
                                        thai        casb-on-band the
     neede d for disbursemen t to be made imm ediately or within 10 days, and amounts
     needed      disbursement             immediat                  days
     requested for reimbursement arc supported by adequate documentation.
                                                              ocumentation.

4.   Remedy
     Rem edy the $19,258 of unapprov e d mi sce llan eous and ind irect expe nditures.
                  ] 9,258 unapprove miscellaneo u             indirect expenditur es.

     We agree with the recommendat ion. We wilt coordinate with NDAA to remedy the
                         recommendation.          wil!
     $19,258 in questioned cos ts rela ted to una pproved miscellaneous and indirect
                             cost lated unapproved misce1laneous and
     expendi tures that were cbarge d to th e various OlP grants. If adequate doc umentat ion
     expendit                  arged the                                       ocume ntation
                prov                  uest              DAA return                 DOl; adjust
     cannot be pro vided, we will request that the NOAA re turn the funds to the DOJ; adjus t
     their account ng records to re move the costs; an d subm it revised FFRs for the grants.
           accountiing           remove                and ubmi

5.   Ens ure that th e NDAA implement a timekeeping approval process for eac h
       nsure tbat tbe                                             process     ach
     supervisor to s ign off on work don e by emp loy«s for each individual project.
                                     done cmployttS         cllch individulll

     We agree with the recommendation. We will coordinate wiith NDAA to o btain a copy of
                        recommendation.
     implem ented
     imp lemented procedures ensuring that a timekeeping appro val process requires each
                                                          approval proces
     supervisor to sign off on work done by e mployees. for eac h individual project.
                                                            each

6.   Remedy the S3,083 in sa lary churges fur periods associllletl with gra nt
                $3,083 sala ry            for periods assocililctl      gntnt
     2006-DD-BX-K272.
     2006-DD-BX-

     We agree with the recommendation. We ",ill coordinate with NOAA to remedy the
                                                 ""ill                  NDAA               thc
     $3,083 in qu estioned costs relate d to unsupported salary charges for two pay periods th at
                 questioned        related                                                     that
     were charged 1o gran t number 2006-00-BX-K272. If adeq uate documentation cannot be
                    t0 grant           2006-00-BX-K272.        adequate                  cannol
     pro vi ded, we will requ est that th e NOAA return the fun ds to the OOJ ; adjust their
                         reque         the                  fund                       thcir
     accou nting records to remove the cos ts; and subm it a rev ised FFR for Ihe grant.
     accounting               emove         cost       ubmi revi               the

7.   Remetl y the S14,039 in unallowable s alary charges.
      emedy       $14,039                  lllary

     We agree with the recommendation. We will coordinate with NOAA to remedy the
                                                                      NDAA
     $14,039 in questioned costs rela ted to wtallowable salary cos ts c harges that were charged
     $1 4,039                       lated unallowable            cost           thai
     to the various OlP grants. If adequate document ation cannot be provided, we will request
                                 If          documentation
     th ai the NDAA return the funds to the 001 ; adjust t heir accounting records to remove the
         t      OAA         thc fimds        OOJ; adju st
     costs;
     costs; and submit revised FFRs for the grants.




                                               2




                                                   73
	
8.    Remedy qu es tioned co s ts of SS5,536 in holida y charges.
             qU e!l       cos                   holiday

      We agree with the recommendation. We will coordinate with NDAA to remedy the
      $85,536 in q uestioned costs related to charges for holiday t ime that were charged to the
                                                          boliday
      various O}P grants. If adequate documentation cannOI be p rovided, we will request that
                IP                     docwnentation CIlllIl.O
      the NDAA return the funds to the DO}; adjust their accounting records to remove the
                                         DOJ;
      costs; and submit revised FFRs for the grants.

9.    Remedy que s ti o ned co s ts of $18,483 in per sonal chuges.
             questio        cos of$18,483 personal charges.

      We agree with the recommendation. We will coordinate with NDAA to remedy the
      $1 8,483 in qu estioned costs related to charges for p ersonal time that were charged to the
                  questioned
      various OJP grants . If adequate documentation cannot be provided, we will request that
                   grants. f                            cannOI      provided,         requcst
      the N DAA return the funds to the DOJ ; adjust their accounting records to remove the
                                                              accOlmting
      costs; and submit revised FFRs for the grants.

10.   Remedy the $ 1,04 7, 688 in unsupp o rted fringe benefit s.
                     047,         unsupported          benefits.

      We 8grce with the recomme nd a tion . We wi ll coordinate with NOAA to remedy the
           agree                       tion.
      $ 1,047,688 in questione d costs related to unsupported fringe benefits costs that were
                      questioned
      charged to th e various OJP grants. If adequate documentation cannot be provided, w e
                 the                                                  cannol
                                                          DOl;
      will request that the NDAA return the funds 10 the DO}; a djust their accounting records
                                                     to
      to remove
      10 re move the costs; and submit rev ised FFRs for tbe grants .
                                        revi             the grants.

11.   En s ure that the NDAA implements accountable property procedures tbat
               tbat                                                          that
      adequately tracks and s afeguards item s purehll.se d with DOJ grant fund s.
                         li nd afcg uard s items purchll.

      We agree with the recommendation . We will coordi nate with N DAA to obtain a copy of
                        recommendation.              coordinate
      implemented accountable property procedures ensuring that items purcbased with DO}
                                 property                             purchased      DOJ
      funds are adequately trac ked and safeguarded.
                           tracked

12.   Remedy the $ 8,381 in the costs of computers for graDt 2001-GP-CX-K050.
             tbe 8,38 1                                grant 2001·GP·CX·K050.

      We agree with the recommendation . We will coordinate with NDAA to r emedy the
      $8,381 in questioned costs related to computers purch ased with grant funds that w ere not
                                                        urchased
      in the approved bu dget for grant number 200 1- GP -CX-K050. If adequate documentatioJ.
                      budget            nwnber        GP-CX-KOSO. If
      cannot be provided, we will request tha t the NDAA return the funds; adjust their
                                           that     NOAA
      accounting records to remove the costs; and submit a revised FFR for the grant.
                                                            revi sed




                                                3



                                               74
	
13.
13.    Remeuy S1,S22 in the cost s of a computer c har ged to g rant 2007·C] ~ FX ·KOOS .
       Remedy I                         com puter      geu           2007·CI~ FX·K005.


       We agree w ith the reco mmendat ion. We w ill coordi nate with NOAA to remedy the
                           recom
       $1,522 in quest ioned costs related 10 a computer purchased with grant fun ds that was not
                                            to
       in the approve d budget for gran t num ber 200 7·CI·FX·KOO5 . If adcquate documcntat ion
                                                   2007 I·FX·KOO5                    documentat
       cannot be provide d, we will re quest that the NDAA retu rn the funds to the DOJ; adjust
                  providcd,                                   return              the        adj us
       the ir accounting records to re move the coslS; an d submi t a rev ised FFR for the grant.
                                    remove      costs;                revi

14.    Rem edy S163 ,662 for travel tran sac tions without written authorization s , vouchers
       Reme 5 163,                   transac
       or ade quate s uppo rtin g docunlcntntion .
          adequate upporting documentation.

       We agree with the reco mmendation. We will coordinat e with NDAA to remedy the
                            recommendat i                   coordinate
       .$163,662 in quest ioned co sts related to trav el transactions charged 10 the v arious OJP
       S 163,662                  cos               travel                        to
       grants whic h di d n ot have written au tilO rizatio ns, vouchers, or adequate support ing
              which            haye         autllO rizations, ouchers ,
       docwnentation. If adequa te documentation cannot be provide d, wc wi ll req uest tha t th e
       documcntation. adequat                                       proyided, we               that the
       NDAA return the funds to thc DOJ ; adjust thei r accounting rec ords to remove the costs ;
                           funds the                    their                 rd s               costs;
       and submit revised FFRs fo r the grants.

15.    E n su re th at the NDAA impl e ments a travel poli cy that requirCll emplo yees to s ubmit
                                            ent s        policy thllt requim mployees
       and receive approval for tmvel befor e incurring travel costs tbat s ub seq uently are
                      IIpproval       travel before
       reimbursed with DOJ grant fund s; require vo uch ers to be prepar ed f or all DOJ
       reimbu rsed                 grA nt                                 prepared
       grll nt fund ed tClwcI; and requir es retenti o n of all s upportin g do cum e ntation s uc h a s
       grHnt funded travel;            requires             1111             doc              lI
                  and          tick et
       r ece ipts "flU airline ti cket s.

       We agree with the recommendatio n. We will coordinate with NDAA to obta in a copy o f
                             recommendation.                                          obtai
       implemen ted travel po licies and procedures e nsuring that: I) emplloyees subm it and
                                                                 that:     mp          ubmi
       recei ve app ro val for travel before incurring travel cost s which are SUbsequen tl y
                appro                                                          subsequent
       reimbursed with DOJ grant funds; 2) vouchers are pr epared fo r all DO ] grant·fundcd
                                 grant                                             J grant.funded
       travel; and 3) all su pportin g doc umentation, such as receip ts and airline tickets, is
       travel;             suppo rtin ocumentation,              ece i
       retained for DOJ grant.funded trave l ex penses.
                     DOJ grant·funded                nses.

16 .
]6.    En~ure that the NDAA evaluates how it tracks lodgin g cosf$ charged to DOJ grants
          nsure                    evaluates                  od g     CO$ts chllrged
       :md in s titut e controls that en sure acc urate e har gi ng lodgin g cos t s .
       :lIId                                  accurate cbar         lodging ost

       We ag ree wilh th e rec omme ndation. We will coo rd inate with NDAA t o obtain a co py of
           agree with the      ommenda
       impleme nt ed proced ures e nsuring that lodging costs charged t o DOJ grants by NOAA
       impl    nted procedures                                                          NDAA
                                                          tracked.
       employees are properly controlled and accurat el y tracked .

17.    Re med y $ 1, 071 , 039 In un s upp ort ed indir ect eo sts.
           edy       071       in      upported             costs.

       We agree wi th th e recommendation. We will coordi nate with NDAA to remedy the
                  with                                  coordinate
       $1,071 ,039 in ques tioned costs rela ted to unsupported indirect costs that were charged to
                                         elated
       the various OlP grants. lf adequate docume ntation cannot be p rovided, we will re quest
        ho                       Ifadequate documentation
       tha t the NDAA rerum th e funds to the DOJ; adjus t th eir accounting records to remove the
                 NOAA                           DO! ; adjust their                       remove
                          revise d
       costs; and submit revised FFRs for th e grants.
                                                     4



                                                    75
	
18.    E nsure th at NDAA impl ement s procedures to calculate indirect c ost rates accurately
               that OAA implement procedure                                   r ates
       and that th es e pro ce dure s consider the unique circumstance that NOAA does not
                the proce dures                th e
       incur indirect costs with regard to its usc of the NAC faculty.
             indi r ect                    to          th e

       We agree with the recommendation. We wi ll coo rd inate with NOAA to obtain a copy of
                                                         coord          NDAA
       implemented procedures ensuring that indirect cost rates are accurately calculated, and
       that these procedures consider the unique circumstance tha t NOAA does no t incur
                                                                  that             not
       indirec t costs with regard to its use of the Nation al Advocacy Center faculty.
       indirect                                      Natio n

19 .   Remedy the S665,000 of pre-agreement cos t s on grant 200 7·0D·8X -K042 to en.~ure
                     tbe $ 665,                                     2007~ OD-BX                nsure
       tllll t th e a mounts are pr operly s upported, accurat e, and relevant to th e gra nt 's
       tha the                 nr e properly upported, accurate        elevanl the
       obje ctives . _
       objectives

       We agree with the recommendation. We will coordinate with NOAA to remedy the
       $665,000 in questione d costs related to pre-agreement cos ls charged 10 grant number
                     questioned                                 costs          to
       2007-D D-BX-K04 2, to ensure that the costs are properly supported, accurate, and
       2007-DD-BX-K042,lo                                          supported,
       relevant to the grant objectives. We will also coordina te with the Bureau of Justi ce
                             objectives.                         c        lhe      of Justice
       Assi stance for a final detennination regarding the allowability of the costs.
                                etermination               alloWllbili ty

20.    Ensure th a t th e NDAA develop procedu res for charging o nl y support a ble a nd
       Ens ure that the                 procedures                nly upportable
       allocable up enses t o futur e DOJ gran ts.
       a llocable upenses future          grants.

       We agree with the rec omme ndation. We wi ll coordinate with NOAA t o obta in a copy of
                          recomme dati on                                    obtain
       implemented procedures ensuring that NOAA only charges supportable and allocable
       expenses 10 future DOJ grants.

21 .
21.    Develop procedures for estimating pr ogram incom e in futur e NOAA grant '
               procedures                program income future DAA
       submissions.

       We agree with the recommendal 'ion. We will coordinate wit h NOAA to o blilin a copy of
                         recommendation.                      with              lain
       implemented proce dures for estimating program income in future grant application
                                                                             appl ication
       submiss ions.

We appreciate the opportunity 10 review and comment on the draft audit report. If you have any
       preci ate                  to
questions or re quire addi tional information, please contact JefTery A. Ha ley, Deputy Di rector,
                      additional nfonnatioll,                 Jeffery    Haley,         Director,
Aud it and Rev iew Div is ion, o n (202) 616-2936 .
           Revi         isi

cc:    Jeffery A. Haley
       Deputy Director, Audit and Rev iew Division
       Deputy                        evi     iv i
       Office of Audit, Assessment , an d Management
                        Assessment, and

       James Burch, II
       Acting Di rector
              Director
       Burcau of Justice Assistance
       Bureau
                                                 5




                                               76
	
Carole oolc
Caro le Poole
Acting Deputy Director for Programs
Bureau of Ju stice Ass istance
          Jus ti ce Assi

Amanda LoCicero
Budget Analyst
Bureau of Justice Assistance

Dara Schulman
Program Manager
        Manager
Bureau of Justice Assistance

Jeffrey W. Slowi kowski
Jcffrey W. Slowikowski
Acting Administrator
Office of Juvenile Just ice and Del inquency Prevention
                    ustice       elinquency

Marilyn Roberts
Deputy Adm ini strator
Office o f J uvenile Justice an d Delinquency P revention
                             and

Lou Holland
Program Manager
Office of J uvenile Justice and Delinquency Prevent ion
                     us tice                Prevention

Kri stina Rose
Kristina
Acting Director
National Inst itute of Justice
           nstitute

Diane Hughe s
Diane
Office Direc to r, Office of Opera tions
         irect               Operations
Nationa l Institute of Justice
National

Katharine
Kat harine Browning
Program Manager
          Manager
Natio nalln stiMe of Justice
Nati on l In itufe

l oy e E.. Frost
Joye E Fros
Acting Director
Office for Victims of Crime

Jasmine D' Addario-Fobian
            Addario-Fobian
Program Manager
Offi ce for Vic tims of Crime
Office               ofCrimc



                                           6


                                       77
	
cc:   Susan B. Carbon
      Director
      Office on Violence Against Women

      Rodney Samuels
      Audit Liaison
      Office on Violence Against Women

      Darla Sims
      Program Manager
      Office on Violence Against Women

      Richard P. Theis
      Assistant Director
      Audit Liaison Group
      Justice Management Division

      OJP Executive Secretariat
      Control Nwnber 20100466




                                    78
	
                                      
	
                                                                                    APPENDIX VII

         OVW RESPONSE TO THE DRAFT REPORT


                                                          U. S. Department of Justice
                                                                Dl!partment Justke

                                                         Office on Violence Against Wom en
                                                                            Against Wome




                                                          IlIuhl"lIOil. o.c 20SJQ
April 1S, 20 10
Apri115,20



MEMORANDUM TO :
           TO:                  Troy M. Meyer
                                     M.
                                Regional Audit Muna gcr
                                               Manager
                                Washington Regiona l Omee
                                           Regi onal Onicc


FROM :
,ROM                           Susa n 8. Carbon
                               Susan B.
                               Director
                               Office on Violence Against Women


SUBJECT:
SUBJECT:                       Re sponsc 10 the Draft A udit Report , Department o/Justlce
                               Response t o      mft A       Report,             a/Justfce
                               Awards To The National District Allorneys Association
                                               Nafional Districi



Th is memorandum is in response to your corresponde nce da ted Mar ch 19,,20 I 0 transmitting
'l'his                               to                               Ma.rch     20 1
th e abo ve draft audit rcport for The Natio n al Dis trict Al10rncys Associa tion. We co nsider the
the above         (ludit       fo r          nal            Attorneys                  cons i cr e
subjec t report resolved and request mitten acceptance of th is (l elion lrom yo ur office.
subject                    nd          written acceptunce this action from your

      report            recommendations         $4.096.528 in             costs. which
The rcPO lt contains 29 reco mmendations and $4,096,528 in questioned cos ts, of which 8
 ecommend a        and $998,837                           directed to OVW. The
recommendati ons an d $998,837 in questioned costs are direct ed to OVW. Th e Office on
Vio lencc Agains t Women (OVW) agreerwi th the recommendations and is commi tted to
Violencc Against Women               agreawilh      recommendations and is
working wi th the grantee to address each iitem and bring tthem to a close as qu ickly as possible.
           with    V.mlce                    tem     bring hem to             quickly as
The fo llowing is an analysis of the audit recomme ndations::
'Ille f llowi        analysis of     audit recommendations

    1) Ens ur e th a i the NOAA develops aind impl emen ts p rocedu res t o tim ely ~I ubmi t
    I    n e ll l              O devel o l nd      cmc n ll rocedures 10 lim        l ubmii
       p rog rc.'iS re lports.
          ogrCS!ll      lor

        We agree with the recommendation. We will work with NDAA LO ensure         they
        We agree wilh the recommendation. We wi ll wo rk with NDAA to e nsure that they
        dcvclopllnd implement procedures to timely s ubmit progress reports.
        develop ond implemen t proccdu rus to ti mely s ubm it progress reports.




                                                      79
	
2) Remedy the $20 ,514 of unappro ved mi sce llaneou s expenditures,
                0                     miscellaneous xpenditures.

   We agree with the recommendation. We will work with NOAA to remedy the $20,514
              with h recommendation.
   in questioned costs re lated to the un approved misce ll aneous expenditures charged to
      questioned costs ated            unapproved iscell
   OVW Grants. If the docu mentation cannot be obtained, we will request that NDAA
   O                  the documentation           bc obtained,     w equest that
                     o DOl;
   return the funds to DOl; adjust their accoun ting records to remove the costs; and submit
                                                                                      submit
   revised FSR's for the grant"
            rSR',         grants.

3) Remedy the $919 in unallowable salary charges,
                19                       charges,

   We agree with the recommendation, We will work wit h NDAA to remedy the $919 in
               with                          w         with
   questioned costs related to the unallowable salary charges charged to OVW Grants. If
                                                                                    Grants.
   the documentation
   the documentation cannot be obtained, we will request that NDAA return the funds to
                               be btained,                                                  o
   DOJ ;             accounti ng           re move cosL~;
   DOl; adjust their accounting records to remove the cos\,.<.;; and suhmit revised FSR's for
                                                                     submit
   the grants .
   the grants.

4) Remedy questioned costs of$24,141 in hulida y charges.
                           uf$24,141             char/.:cs.

   We agree wi th the recom mendation. We will work with NOAA to remedy the $24, 141
               with       ecommendation.                        N         remedy        1 1
   in qu estiom:d costs related to the holiday time that was charged to OVW Grants. If the
         estiom:d         related he holiday
   documentation cannot be obtained, we will request that NDAA ret urn the funds to 001;
                                             w                       return            DOJ;
   adjust
   adjus t their acco un ti ng records to remove the costs; amd submit revised FSR's for the
                      unt                                   c nd submit
   grants.
    rants.

5) Remed y que.dioned costs of $6,038 in personal charges.
   Reilled questioned           6,038 pers al rges.

   We agree with the recommendation. We will work with NDAA to remedy the $6,038 in
                       recommendation, w work              NOAA o
   questioned costs related to the personal time that was charged to OVW Grants. If the
                                                           charged          Grants.
   documentation cannot be obtained, we will request that NOAA return the fun ds to DO};
                                                                            funds D
   adjust their acco unting records to remove the costs; and submit revised FSR's for the
                accounting                                   submit evised
   grants.
   grants.

6) Remedy $449, 550 in unsupported fringe benefits .
           449,550        upported                 ,

   We agree with the recommendation. We will work with NOAA to remedy the $449,550
                        ecommendation.                        NDAA
   in questioned costs related to the unsupported fringe benelits costs that were charged lo
    n                                 unsupported ji'inge                                  t
   OVW Grants. If the doc umentation cannot be obtained, we will reques l th at NOAA
           Grants.        documentation                             w request
   return the funds to 001 ; adjust their accou nting records to remove the costs; and submit
                       DOJ;               accounting reconls
   revised FS R's for the gran ts.
   revised FSR            grants.




                                         80

      7) Remedy $90,209 for travel transactions without authorizations or vouchcl's.
                590,209     travcl transactions         authol'izations vouchers.

         We agree with th e recommendation. We wi ll work with NDAA to remedy the $90,209
              agrce      the                                       NOAA
         in questioned costs relatcd to the travel transactions chargcd to OVW Grants that did
                        cost                                    charged
         nol
         no l have travel authoriL.ations andlor vouchers. If the documentation cannot be
                             authOl"i7.ations and/or
         obtained
         obta ined,, we will request that NOAA return the funds to DOl; adjust their acco unting
                                            NDAA                    001;             accounting
         records to remove the costs; and submit revised FSR's for the grants,
                                 costs;      subm

      8) Remedy the $407,466 in unsupported indirect costs.
                    5407,466

         We agree with the recommendation. We will work wit h NDAA to remedy the $407,466
                                                             with NOAA              thc
         in questioned costs related to the unsupported indirect costs charged to OVW Grants. If
         the documentatio n                               request      NDA A
         th e documentation cannot be obtained, we will re qoest that NDAA return the funds to
         DOJ; adjust their accounting records to remove the costs; and submit revised I'SR's for
                                                                                        FSR's
         the grants,
         th e gronts,



We appreciate th e opportun ity to review and comment on the draft report. We will cont inue to
                the opportuni                                  droft               continue
work wit h The National District Attorneys Association to address the recomme ndations. If you
       with The                              Association               recommendations. lfyou
have any questions or re quire additional information, please contact Rodney Samuels of my
                       require
staff at (202) 514-9820,


Attachment

ce:
cc:    Scott Burns
       Executivc
       Executive Director
       Na tional District Attorneys Association
       National                     Association

       Thomas Harrison
       Chief Financial OtTIcer
                         mcer
       National
       National District Attorneys Association
                                   Association

       Darla Sims
       Program Specia list
                Speciali st
       Office on Violence Against Wome n (OVW)
        ffi ce                    Womcll

       Jeff A. Haley
       Deputy Director - Audit and Review Division
                                           Division
       Office of Audit, Assessmen t, and Management
                         Assessment,
       Office of Ju stice Programs
                 Justice




                                            81

cc: Linda Taylor
    1,ead Auditor, Audit Coordination Branch
    Audit and Review Division
    Office of Audit, Assessment, and Management
    Office of Justice Programs

     Richard P. Theis
     Assistant Director
     Audit J,jaison Group
     Justice management Division

     Kotara Padgett
     ACcOlmting Officer
     Office on Violence against Women (OVW)




                                     82
	
                                       
	
                                                    APPENDIX VIII

      ACTIONS NECESSARY TO CLOSE THE REPORT

      The OIG provided a draft of this audit report to NDAA, OJP and OVW
for their review and comment. Their responses were incorporated as
Appendices V, VI, and VII of this final report. This appendix presents our
analysis of their responses, and the actions necessary to close each of the
report’s 29 recommendations.

General Comments

      The NDAA generally concurred with our findings; however, they
provided some comments that we address as follows:

      Server Crash: The NDAA stated that they wanted to clarify our
statement that “NDAA had not backed up the electronic general ledger prior
to the server crash.” The NDAA stated in its response that the server used
to maintain the general ledger prior to September 30, 2006 crashed in July
2008. While NDAA staff performed backup procedures for that computer
server and has back up data from it, the NDAA was unable to reload and
reactivate the accounting software on another server. As a result, it could
not verify whether the backup data was useful or corrupted.

       During the audit, the issue with unavailable general ledger information
was discussed several times, and while we revised the report based on
NDAA’s response, the end result is the same - the general ledger information
is not available. Further, we maintain that effective backup procedures
would ensure that systems are available to read backed up information
otherwise the information is not useful.

       Minimum Drawdowns: In its response, the NDAA noted that in a
majority of instances, it was drawing down less than the amounts reflected
in its accounting records. The NDAA also stated that most of the questioned
expenses would be justifiable with expense accruals that occurred prior to
the drawdown, but were not posted until afterward.

       In our judgment, this is not an accurate assessment of the finding. As
noted in our report, the financial data relating to 7 of the 16 awards under
review were lost when the NDAA’s server crashed. As a result, we were
unable to reconcile individual drawdown requests to supporting documents,
or otherwise determine whether the NDAA requested funds in excess of what
it required to pay for incurred or anticipated grant expenses for the following
grants: (1) 2001-GP-CX-K050, (2) 2004-WT-AX-K047, (3) 2004-DN-BX-


                                      83
	
K017, (4) 2005-MU-FX-K012, (5) 2006-DD-BX-K272, (6) 2006-CP-BX-K002,
and (7) 2007-DD-BX-K042. We could only determine on a cumulative basis
whether the grantee had transactions supporting the total amount drawn
down as of June 2008. For 6 of the remaining 9 grants, the NDAA requested
excessive drawdowns totaling $221,433.

       Further, the accounting system practices employed by the NDAA failed
to “lock” what should have been closed accounting periods. Because its
accounting system lacked adequate controls, NDAA personnel were able to
post transactions to NDAA’s general ledger for time periods in which the
NDAA had already prepared a drawdown request. As a result, we could not
ascertain whether the NDAA actually complied with the Financial Guide’s
minimum cash-on-hand requirement.

      Travel: In its response, the NDAA asked if the travel costs in
recommendation 14 was duplicated in the pre-agreement questioned costs
(Recommendation 19). The $163,622 in questioned travel costs does not
include questioned pre-agreement travel; therefore, we did not duplicate the
questioned travel cost.

Summary of Actions Necessary to Close the Report

      This section presents the status of each recommendation, and the
actions necessary to close the report.

  1. Resolved. This recommendation can be closed once we receive and
     review the written policies and procedures that ensure award expenses
     are accurately reported on its FSRs.

  2. Resolved. This recommendation can be closed once we receive and
     review the procedures that ensure the accounting system is backed
     up.

  3. Resolved. This recommendation can be closed once we receive and
     review the written policies and procedures that ensure consistent
     drawdowns that meet the minimum needed to pay for actual and
     anticipated costs within 10 days of the draw.

  4. Resolved. This recommendation can be closed when we receive and
     review the documentation supporting the allowability of the questioned
     miscellaneous and indirect costs or when OJP provides documentation
     that they requested and received from the grantee the return of
     $19,258 in questioned costs.



                                    84
	
 5. Resolved. This recommendation can be closed when we receive and
    review the modification of its timekeeping approval process whereby
    stating that the supervisor for each project charged will sign off on
    work done by employees by individual project.

 6. Resolved. This recommendation can be closed when we receive and
    review the documentation supporting the allowability of the questioned
    salary costs or when OJP provides documentation that they requested
    and received from the grantee the return of $3,083 in unsupported
    salaries.

 7. Resolved. This recommendation can be closed when we receive and
    review the documentation supporting the allowability of the questioned
    salary costs or when OJP provides documentation that they requested
    and received from the grantee the return of $14,039 in unallowable
    salaries.

 8. Resolved. This recommendation can be closed when we receive and
    review the policy and documentation supporting the allocation of
    holiday leave or when OJP provides documentation that they requested
    and received from the grantee the return of $85,536 in unallowable
    holiday time charges.

 9. Resolved. This recommendation can be closed when we receive and
    review the policy and documentation supporting the allocation of
    personal leave or when OJP provides documentation that they
    requested and received from the grantee the return of $18,483 in
    unallowable personal time charges.

10.		Resolved. This recommendation can be closed when we receive and
     review the recalculated fringe benefit rates and the documentation
     supporting the recalculated rates or when OJP provides documentation
     that they requested and received from the grantee the return of
     $1,047,688 in unsupported fringe benefit charges.

11.		Resolved. This recommendation can be closed once we receive and
     review the implemented accountable property procedures that specify
     how items purchased with DOJ funds are adequately tracked and
     safeguarded.




                                   85
	
12.		Resolved. This recommendation can be closed when we receive and
     review the documentation supporting the allowability of the questioned
     computer costs or when OJP provides documentation that they
     requested and received from the grantee the return of $8,381 in
     questioned computer costs.

13.		Resolved. This recommendation can be closed when we receive and
     review the documentation supporting the allowability of the questioned
     computer costs or when OJP provides documentation that they
     requested and received from the grantee the return of $1,522 in
     questioned computer costs.

14.		Resolved. This recommendation can be closed when we receive and
     review the documentation supporting the allowability of the questioned
     travel costs or when OJP provides documentation that they requested
     and received from the grantee the return of $163,662 in unsupported
     travel costs.

15.		Resolved. This recommendation can be closed once we receive and
     review the implemented travel policy that requires employees to
     submit and receive approval for travel before incurring travel costs
     that subsequently are reimbursed with DOJ grant funds; require
     vouchers to be prepared for all DOJ grant funded travel: and requires
     retention of all supporting documentation such as receipts and airline
     tickets.

16.		Resolved. This recommendation can be closed once we receive and
     review the implemented travel policy that ensures that NDAA
     accurately tracks lodging costs charged to DOJ grants and institutes
     controls that ensure accurate charging of lodging costs.

17.		Resolved. This recommendation can be closed when we receive and
     review the recalculated indirect cost rates and the documentation
     supporting the recalculated rates or when OJP provides documentation
     that they requested and received from the grantee the return of
     $1,071,039 in unsupported indirect cost charges.

18.		Resolved. This recommendation can be closed once we receive and
     review the indirect procedures that ensure that NDAA accurately
     calculates indirect costs and considers the unique circumstances
     involving its NAC facility.




                                    86
	
19.		Resolved. This recommendation can be closed when we receive and
     review supporting documentation to show that the amounts are
     approved by OJP, properly supported, accurate, and relevant to the
     grant objectives. If OJP cannot provide the specified documentation
     this recommendation can then be closed when OJP provides
     documentation that they requested and received from the grantee the
     return of $665,000 in unsupported pre-agreement costs.

20.		Resolved. This recommendation can be closed when we receive and
     review the policy and procedures for charging only supportable and
     allocable charges to current and future DOJ grants.

21.		Resolved. This recommendation can be closed when we receive and
     review the procedures for estimating program income.

22.		Resolved. This recommendation can be closed when we receive and
     review the procedures for timely submission of progress reports.

23.		Resolved. This recommendation can be closed when we receive and
     review the documentation supporting the allowability of the questioned
     miscellaneous costs or when OVW provides documentation that they
     requested and received from the grantee the return of $20,514 in
     questioned costs.

24.		Resolved. This recommendation can be closed when we receive and
     review the documentation supporting the allowability of the questioned
     salary costs or when OVW provides documentation that they requested
     and received from the grantee the return of $919 in unallowable
     salaries.

25.		Resolved. OVW concurred with this recommendation, and in NDAA’s
     response they stated that they will develop a consistent method for
     allocating Holiday time on a pro-rata basis across costs centers
     charged before and after the holiday. Further, NDAA will apply this
     method to these holiday charges to remedy these questioned costs.
     This recommendation can be closed when we receive the policy for
     allocating Holiday time on a pro-rata basis and when we receive
     documentation that displays the allocation method across all grants
     audited.




                                   87
	
26.		Resolved. OVW concurred with this recommendation, and in NDAA’s
     response they stated that they will develop a consistent method for
     allocating Personal leave time on a pro-rata basis across costs centers
     charged before and after the personal day. Further, NDAA will apply
     this method to these Personal leave charges to remedy these
     questioned costs. This recommendation can be closed when we
     receive and review the policy stating that Personal leave time will be
     allocated on a pro-rata basis and when we receive documentation
     showing the allocation method across all grants audited.

27.		Resolved. OVW concurred with this recommendation, and in NDAA’s
     response they stated that they plan to procure the services of an
     outside consultant with experience in creating federal fringe benefit
     rates and correctly recalculate the fringe benefit rates in question to
     remedy these questioned costs. This recommendation can be closed
     when we receive and review the recalculated fringe benefit rates and
     when we receive and review the documentation supporting the
     recalculated fringe benefit rates.

28.		Resolved. OVW concurred with this recommendation, and in NDAA’s
     response they agree that they did not have a travel policy in place
     prior to July 2008 and that proper travel authorizations, completed
     vouchers and adequate documentation were lacking. Further, NDAA
     agrees with the recommendation to remedy $90,209 in unsupported
     travel transaction and will produce alternative supporting
     documentation to verify the travel costs in question. This
     recommendation can be closed when we receive and review the
     supporting documentation to verify that the questioned costs of
     $90,209 in travel transactions.

29.		Resolved. OVW concurred with this recommendation, and in NDAA’s
     response they plan to procure the services of an outside consultant
     with experience in creating federal indirect costs rates and correctly
     recalculate and apply the corrected indirect costs rates in question to
     remedy these questioned costs. This recommendation can be closed
     when we receive and review the documentation recalculating the
     indirect costs rate and when we receive the documentation of the
     recalculation of the indirect costs rate on the grants audited.




                                    88
	
